           Amtrak
Office of Inspector General

                EVALUATION REPORT E-09-05

Amtrak’s Infrastructure Maintenance Program

                      September 29, 2009




This report will become available to the public on October 29, 2009.
                                EXECUTIVE SUMMARY

PURPOSE

      The purpose of this review was to evaluate the efficiency and effectiveness of
Amtrak’s Infrastructure Maintenance Program and to identify opportunities for improvement.

METHODOLOGY

       The efficiency and effectiveness of Amtrak’s Infrastructure Maintenance Program was
evaluated by utilizing a combination of qualitative and quantitative evaluation techniques.
We conducted a comprehensive set of interviews of Amtrak Engineering staff members to
determine what, why and how Amtrak completes its infrastructure maintenance work. To
measure the relative efficiency and effectiveness of Amtrak’s Infrastructure Maintenance
program, we benchmarked Amtrak’s performance metrics to those of comparable European
railroads. To identify the “best practices” in infrastructure maintenance, we visited six
European countries/infrastructure operators that were included in the benchmarking study
and had unique expertise in specific areas of infrastructure maintenance and renewal.

OVERALL CONCLUSIONS

       Amtrak maintains over $17 billion worth of infrastructure assets throughout its
national rail passenger system, with the majority of these assets being located in the
northeast region of the United States. Although a significant portion of its infrastructure
assets are over aged, over the last several years Amtrak’s Engineering Department has done
a commendable job of improving infrastructure reliability and reducing infrastructure
operating expenses.

        In addition to these recent improvements, our benchmarking shows that Amtrak has
an opportunity to further reduce its long-term infrastructure capital and operating
maintenance costs by $50 million to $150 million per year by improving the overall efficiency
and effectiveness of its infrastructure maintenance program to the level of comparable
European railroads. It is recognized that many of the major cost drivers (e.g. age of
infrastructure, weight of trains, multi-year funding commitments, regulatory rules and
policies) impacting infrastructure maintenance are outside of Amtrak and/or the Amtrak
Engineering Department’s direct control. To capitalize on the opportunity to further reduce
Amtrak’s long-term infrastructure maintenance costs, the OIG has made 16
recommendations on the actions that Amtrak management should take to either influence
the cost drivers that are outside their direct control or implement positive changes in the cost
drivers that are within their direct control.




                                               i
TABLE OF CONTENTS

INTRODUCTION
     PURPOSE                                               1
     SCOPE/ METHODOLOGY                                    1
     SUMMARY                                               2

AMTRAK INFRASTRUCTURE
     BACKGROUND                                             4
     CURRENT INVENTORY                                      4
     CAPITAL REINVESTMENT LEVELS                           14
     STATE OF GOOD REPAIR                                  15
     INFRASTRUCTURE EXPENSES & OPERATING RELIABILITY       16
     SUMMARY                                               18

INTERNATIONAL BENCHMARKING
     COMPARATORS                                           19
     PHYSICAL PLANT AND OPERATIONS                         21
     ASSET AGE COMPARISON                                  23
     METHODOLOGY                                           26
     NORMALIZATION PROCESS                                 27
     RESULTS                                               29
     SUMMARY                                               33

FINDINGS AND RECOMMENDATIONS

     CAUSAL FACTORS IMPACTING EFFICIENCY & EFFECTIVENESS   34
     PROCESS                                               36
     LABOR                                                 57
     TECHNOLOGY                                            63
     SUMMARY – RECOMMENDATIONS                             76

LIST OF APPENDICES

I    SUMMARY OF EUROPEAN BEST TECHNOLOGY PRACTICES         78
II   CONTRIBUTORS                                          79




                                 ii
                                    INTRODUCTION

PURPOSE

      The purpose of this review was to evaluate the efficiency and effectiveness of
Amtrak’s Infrastructure Maintenance Program and to identify opportunities for improvement.

SCOPE/METHODOLOGY

        This review evaluated the efficiency and effectiveness of the maintenance of Amtrak’s
infrastructure assets, which can be categorized into their technical disciplines of Track,
Structures, Electric Traction and Signal and Communications. Although Amtrak owns and
maintains infrastructure assets throughout the continental United States, the majority of
Amtrak’s infrastructure assets are located in the Northeast Corridor between Washington, DC
and Boston, Massachusetts.

        The efficiency and effectiveness of Amtrak’s Infrastructure Maintenance Program was
evaluated by utilizing a combination of qualitative and quantitative evaluation techniques.
We conducted a comprehensive set of interviews of Amtrak Engineering staff members to
determine what, why, and how Amtrak completes its infrastructure maintenance work. We
interviewed the Engineering staff members who had a direct influence on the decision
making and the implementation of the Infrastructure Programs; including the Chief Engineer,
the Deputy Chief Engineers, the Division Engineers, the Senior Director of Clearances &
Inspections, the Senior Director of Planning & Budgeting, and others. The information
obtained from the Engineering Staff interviews was subsequently used to develop a Systems
Dynamic Model that identifies the causal factors impacting both the efficiency and
effectiveness of Amtrak’s Infrastructure Maintenance Program.

        The relative efficiency and effectiveness of Amtrak’s Program was determined by
benchmarking Amtrak’s infrastructure maintenance performance metrics to those of
comparable European railroads. To obtain the required information for the European
Infrastructure Programs, Amtrak enlisted the help of BSL Management Consultants, which
had been benchmarking the performance of European Infrastructure Programs for the past
12 years. During these 12 years, BSL developed, with the cooperation and approval of the
International Union of Railroads (UIC), a normalization process that produced meaningful
comparisons of railroad maintenance costs by taking into consideration the differences in the
major cost drivers (e.g. labor cost levels, purchasing power, turnout density, etc.) of each
railroad. The data provided by this benchmarking analysis was used to help identify the
specific railroads that had the best infrastructure maintenance practices in Europe.




                                              1
             Based upon the quantitative results of the benchmarking analysis and also the
knowledge of BSL Management Consultants regarding European infrastructure maintenance
procedures and technology, we decided to visit the following six countries/infrastructure
operators to identify their “best practices” related to infrastructure maintenance. The team
                  Operators/Countries Chosen for Benchmarking
                                                                      that visited the European
                                                                      infrastructure operators included
                      •Network Rail, Great Britain •Banverket, Sweden Amtrak’s Chief Engineer, the
                              – Decreased unit cost by 24% in 3 years
                                                                      Deputy Chief Engineer of each
                              – Cost-optimizing track possession policy
                                                                          – One of best cost performers
                                                                          – Bridge maintenance tools

                                                                      engineering discipline, the BSL
                              – Advanced KPI agreements and asset         – One leader in Europe for optimizing track
                                management tools                            maintenance and extend track system
 •ProRail, The Netherlands                                                  lifetimes
    – Rich experience of contract
      management                                     •DB AG, Germany  infrastructure consultant, and two
                                                                      OIG evaluators. The results of
    – Advanced application of asset                                         – One of the most efficient railroads
      management tools                                                      – 20% cost improvement from a
                                                                              multi-annual funding agreement

                                                                      the benchmarking analysis and
    – Deployment of remote control
      components                                                            – Analytical HR-dimensioning tool
    – High density of bridges                                               – Innovative multi-disciplinary teams
      (incl. movable bridges)

 •SSB, Switzerland
                                                   •ÖBB, Austria      the review of “best practices” are
    – Top performer, highly cost
      efficient and quality focused
                                                                      incorporated into the findings and
                                                                          – Cost efficient reinvestment strategy
                                                                            for signaling


                                                                      recommendations of this
                                                                          – Good business-case based decision
    – Highest train punctuality
                                                                            making
      in Europe
                                                                          – Analytical cost accounting

                                                                      evaluation.
    – "Lean infrastructure approach"
    – Established
      KPI measure-
      ment system




EVALUATION SUMMARY

        Amtrak maintains over $17 billion worth of infrastructure assets throughout its
national rail passenger system, with the majority of these assets being located in the
northeast region of the United States. Although a significant portion of its infrastructure
assets are over aged, Amtrak’s Engineering Department has done a commendable job of
improving infrastructure reliability and reducing infrastructure operating expenses. During
the FY ’02 to FY ’07 time period, the Engineering Department reduced its infrastructure
operating expenses by 15% and its actions contributed towards a 60% reduction in
infrastructure-related train delays.

        Despite these recent reductions in infrastructure operating expenses, it is estimated
that Amtrak spends about $50 million more per year than the average European Railroad and
$150 million more per year than the “best” 1 European Railroads to maintain and renew
infrastructure assets comparable to Amtrak’s Northeast Corridor 2 . There are numerous
factors that determine why Amtrak spends more on its infrastructure maintenance and these
can be categorized as either outside Amtrak’s control or within Amtrak’s control.



1
  The expenditure level of the “best” European Railroads is calculated based on the average of the railroads with
expenditure levels in the lower half of the sample.
2
  The estimated $50 million to $150 million performance gap is based upon Amtrak’s total operating and capital
expenditures related to the maintenance and renewal of NEC infrastructure assets.


                                                                                       2
      Some of the major factors that impact infrastructure maintenance and are outside
Amtrak Engineering’s direct control are:

   o Age Of Infrastructure – it is estimated that 30% of Amtrak’s infrastructure assets are
     beyond their design service life, which is much worse than European Railroads, and,
     therefore, require higher frequencies of inspections and maintenance intervention.
   o Weight of trains – the average passenger train on the NEC is more than twice that of
     the average European passenger train and there is even a larger variance in the
     weight of freight trains operated over these infrastructures. The weight of rolling
     stock has a significant impact on infrastructure maintenance expenses since the
     heavier trains require heavier, more expensive infrastructure components to support
     them; the heavier components are more expensive to maintain; and the heavier trains
     cause more damage to the infrastructure.
   o Multi-Year Funding – Amtrak has not had the advantage of receiving multi-year capital
     funding commitments, which is a significant impediment to the planning and execution
     of an efficient and effective capital maintenance program.
   o FRA and Civil Regulations – Amtrak must operate within FRA and Civil regulations that,
     at times, negatively impact its ability to optimize the efficiency of its maintenance
     programs.

      Some of the major factors that impact infrastructure maintenance and are within
Amtrak’s control are:

   o Advanced Technology/Equipment – Amtrak could improve the efficiency and
     effectiveness of its infrastructure maintenance program by using the advanced
     technologies and equipment that are being used by the European Railroads. In some
     cases, the financial benefits that could be derived from the advanced technology
     depend upon the modification of FRA and/or Civil Regulations.
   o Asset Management Process – Amtrak could improve the efficiency and effectiveness
     of its maintenance programs by expanding the scope of its asset management process
     to provide the data and analytic capabilities required to optimize Amtrak’s investment
     of capital and operating funds in the infrastructure assets in support of Amtrak’s
     strategic operating goals.
   o Maintenance processes – Amtrak could improve the efficiency of its maintenance
     programs by expanding the use of Industrial Engineering techniques to optimize the
     use of labor, machinery, and available “track time.”

       We recommend that Amtrak pursue the actions summarized on pages 76 and 77 of
this evaluation, recognizing that the Engineering Department has already initiated some of
the recommended actions, that they are not totally in control of all factors, and that they
must enlist the support of outside agencies to accomplish several of these tasks. The rest of
this report describes Amtrak’s infrastructure in more detail, explains the results of our
benchmarking with European railroads, and discusses our findings and recommendations
intended to improve the efficiency and effectiveness of Amtrak’s infrastructure maintenance.


                                              3
                             AMTRAK INFRASTRUCTURE


BACKGROUND

      When Amtrak began operations on May 1, 1971, it owned no track or right-of-way and
relied upon the host railroads to provide all of the infrastructure and most of the manpower
required to operate its trains. Over time, Amtrak began to acquire the infrastructure that it
required (i.e. maintenance facilities, stations, some right-of-way, etc.) to operate the national
rail passenger system. The vast majority of the right-of-way was acquired in 1976 when the
Railroad Revitalization and Regulatory Reform Act transferred ownership of the Northeast
Corridor (NEC) to Amtrak. In subsequent years, three additional short segments of non-
Northeast Corridor route segments were acquired by Amtrak. It should be noted that:

          1) the NEC uses existing rail lines that were built by four separate railroads as
             early as the 1830’s and that significant portions of the infrastructure assets date
             back to the late 1800s and early 1900’s,
          2) similar to other assets acquired from the original passenger train operators, the
             right-of-ways had significant amounts of deferred maintenance.


CURRENT INVENTORY

       Amtrak’s infrastructure assets are located throughout the continental United States, but
the majority of them are located in the Northeast between Washington, DC and Boston,
Massachusetts. Amtrak owns and maintains infrastructure assets (i.e. track systems,
communication and signal systems, electric traction systems, stations, bridges & tunnels,
maintenance yards, maintenance of way bases, and mechanical facilities) along the following
rail lines.

   •  Northeast Corridor:
          o   Washington to New York
          o   New Haven to Boston
    • Northeast Corridor Feeder Lines
          o Philadelphia – Harrisburg
          o New Haven – Springfield
          o New York - Albany
    • Michigan Line

Additionally, Amtrak owns and maintains station, yard, and mechanical facilities at the
following locations.

    •   Chicago
    •   New Orleans


                                                4
    •   Florida Station
    •   Los Angeles
    •   Oakland Station
    •   Seattle Station

     During FY ’06, Amtrak’s Engineering Department produced a State of Good Repair
(SOGR) Document that grouped the company’s infrastructure assets into four major
categories (i.e. Track, Communication and Signaling, Electric Traction, Structures) and six
geographical locations (i.e. NEC Mainline, Springfield Line, Harrisburg Line, Albany, Central,
and West). This document provided a very comprehensive accounting of the infrastructure
assets that Amtrak owns and an assessment of their state of good repair. An asset is
considered to be in a State of Good Repair when that asset is being maintained and replaced
within the design life of that component.

Track

         The State of Good Repair document provides insight into the wide range in types of
infrastructure assets, their condition, and their distribution throughout the country. As
shown in the following summary table, track assets are distributed throughout the United
States, with the majority of them located within the NEC mainline.

                           Summary - Track Assets by Location


     Asset
   Description        Unit       NEC       Sp’fld    Albany    Harris.    Central    West

Tracks                miles     1,196      86     99     274     160                   17
Turnouts              each      1,807      19     29     222     228                    0
Track Fasteners       sets    5,838,180 390,720 6,727 322,080 528,000                42,740
Wood Ties             each     575,000 284,590 296,850 745,110 527,000               76,290
Concrete Ties         each    2,919,090 195,369   0    161,040 264,000               21,370
Insulated Joints      each      12,204    446    551    1,822   1,176                 362


In addition to geographical dispersion, there is also a wide range in the condition of the
assets at each of these locations that require the appropriate maintenance and renewal
programs. The rail, tie, and ballast conditions vary from that of the recently re-laid tracks




                                               5
with concrete ties, new rail, and renewed ballast (picture on the left) to track that has worn
rail, poor ties, and contaminated ballast (picture on the right).




In addition, the degraded rail and tie condition that exists at various locations throughout
Amtrak’s system creates poor track geometry, as illustrated in the following picture of a turn
out in Washington Union Station, that causes poor ride quality and increased maintenance
expenses for both the track system and rolling stock.




                                                                Note: This picture illustrates the
                                                                poor alignment, gauge, cross
                                                                level, and curvature of the
                                                                station and crossover track.




Electric Traction

      A review of Amtrak’s Electric Traction assets reveals that, although Amtrak has electric
traction assets on only two lines, there is a wide range in the condition of these assets and
the size and complexity of the electric traction systems. The following table is a summary of
the types and locations of the major electric traction systems/components.




                                               6
                     Summary - Electric Traction Assets by Location

 Asset Description       Unit       NEC      Sp'fld Albany Harris. Central            West

 Catenary System         Miles   1,285          0         0        278        0         0
 Freq. Converters       Systems    18           0         0         3         0         0
  Catenary Poles         Each    25,543         0         0       6,046       0         0
 ET Transformers         Each     123           0         0        23         0         0
   ET Breakers           Each     895           0         0        132        0         0
   ET Switches           Each    2,141          0         0        180        0         0
     3rd Rail             Feet  153,120         0         0         0         0         0

By far, the majority of the electric traction assets lie along the NEC mainline between
Washington and New York and between New Haven and Boston. The complexity of the
listed assets ranges from the relatively simple catenary pole, shown in the following picture
on the left supporting a signal transformer, to a frequency converter station that includes
multiple electric systems as in the aerial picture on the right.




Similar to the situation with track, there is a large variance in the condition of the individual
assets making up Amtrak’s electric traction system. Overall, the electric traction system that
exists between New Haven and Boston is in excellent condition since it was recently installed
as part of the electrification project of Amtrak’s mainline between New Haven and Boston.
The following picture on the left illustrates the essentially pristine condition of the constant
tension catenary system that has been installed to support the high-speed rail service
enabling the Acela to attain a maximum speed of 150 mph between New Haven and Boston.




                                                7
The picture on the right illustrates the much older system on the south end of the mainline
that is a non-constant tension system with components that are beyond their design service
lives and that have major levels of deterioration. Examples of this include the contact wires
that are far beyond their 30 year design service life and the severe deterioration that many
of the catenary poles have experienced (see following pictures) on the south end of the
railroad.

  Tubular Catenary Deterioration                   Pole Foundation Erosion




The extremes in individual asset conditions can also be seen in the electric traction sub-
stations where new single pole vacuum breakers sit beside 70 year old breakers (following
picture on left) and 70 year old power transformers (following picture on right).




                                              8
Communication & Signaling

       As detailed in the following chart, Amtrak has Communication & Signaling (C&S)
assets located throughout its national system, with the majority of those assets located in the
northeast portion of the country.

              Summary - Communication & Signaling Assets by Location

   Asset Description         Unit     NEC     Sp’fld   Albany Harris. Central         West

ABS                          Miles   1,085      83       19        261       104        0
Positive Train Control       Miles    428        0        0         0        66         0
Interlockings                Each     119       11        3        18        31         0
Radios                       Units   6,650     115       117       613      2,255     2,262
Switch Heaters               Each    1,149      22        2        173       40         0
CETC System                  Each      3        0         0         0         1         0
Crossing System              Each      11       36        0         3        97         0

As described in the following sections of this report, the state of good repair of the C&S
assets are relatively good and the capital renewal costs low compared to that of the other
infrastructure asset categories. However, there are C&S assets that are either nearing or
beyond their useful service life. For example, the maintenance intensive, air operated switch
machines shown in the following picture (left) should be replaced by modern electric switch
machines that are more reliable and require less maintenance.

      Air Operated Switch Machine                      Electric Switch Machine




Other C&S assets that are not in a state of good repair are illustrated by the following
pictures of a deteriorated signal case cable and an obsolete interlocking machine.




                                               9
               Signal Case                              Interlocking Machine




Amtrak also has three centralized electrification and traffic control (CETC) centers that have
obsolete computer software systems that need to be replaced with modern server based
systems that are more economical to operate and that are easily backed up with a redundant
system at a remote location.

Structures

        The following table summarizes the major types of structures that Amtrak owns and
where they are located. As it will be shown in the following sections of this evaluation, the
existing condition of facilities is a major issue for Amtrak because a major portion of these
assets are not in a “State of Good Repair” and the cost to either rehabilitate or replace them
will run into the billions of dollars.

                             Summary – Structures and Locations

      Asset
    Description         Unit       NEC       Sp'fld   Albany    Harris.    Central      West

Moveable Bridge         Each        10         0         1         0            2         0
Signal Bridge           Each        99         6         2         76           4         0
Bridge Ties             Each      16,417     2,500     1,700      500          883        0
Undergrade
Bridge                  Each        929        77        69     195       57       0
Culvert                 Each        480        120       92     141       67       0
Fence                   Feet      778,000    35,000    45,000 62,000    40,000     0
M/E Facility           Sq. Ft.   1,258,000      0     124,000    0    1,244,000 414,000
M/W Base               Sq. Ft.    582,000    33,000    13,000 100,000   24,000   21,000
Station                 Each         18         7        3       8       269      139
Transp. Facilty        Sq. Ft.    297,000       0      2,000   3,000    92,000   70,000
Tunnel                  Feet       95,973       0      1,584    750       0        0
Retaining Wall          Feet       74,000     2,700      0     4,000      0        0


                                              10
       Moveable bridges is one of the asset categories that is a major challenge for the
Engineering Department because they are critical to the operation of the railroad, the bridges
are very old with significant deferred maintenance, and any rehabilitation or replacement
program will disrupt the normal operation of the railroad. The bridges are critical to the
operation of the railroad since they must open and close reliably up to 3,000 times per year
to permit water traffic to pass and avoid delays or disruptions in service to both rail
passenger traffic and water traffic. Eleven of the thirteen moveable bridges that Amtrak
owns were built between 1901 and 1919 and none of them are in a state of good repair.
                                              As illustrated in the picture on the left of the
                                             Thames River Bridge in Groton, Connecticut,
                                             moveable bridges are very large, complicated
                                             structures with many critical structural, electrical,
                                             and mechanical systems.




        Since many of these structures are either next to or relatively close to salt water, they
are exposed to conditions that accelerate the normal deterioration of
steel structures. The picture to the right illustrates the extent of the
corrosion that occurs to the stringers of bridges after they have been
exposed to these conditions. When these conditions occur, a decision
needs to be made whether it is more economical to repair the
components of the structure (e.g. bridge stringers) or to replace the
entire structure. In some cases, the replacement of the entire structure
is warranted when there is extensive deterioration in the other major
components of the structure.




       Another asset category that is a major challenge to the Engineering Department is
tunnels. Amtrak currently has eleven tunnels with a total length of almost 100,000 feet.
These tunnels were built in the 1871 to 1934 time period and have experienced problems


                                               11
with waterproofing, drainage, structural integrity, and lighting. In addition, poor alignment
of some tunnels prevents Amtrak’s high-speed trains from operating anywhere near their
design speed and consequently prevents the company from operating its premium service at
its optimal train schedule. The following picture on the left illustrates the extensive
deterioration to the concrete lining of tunnels and the picture on the right the fouling of
tracks caused by seepage of water into the tunnels. It should be noted that these conditions




create mud spots, defects in track alignment and profile, and accelerates corrosion of critical
track components.

      Amtrak owns a substantial amount of fixed facilities, such as passenger rail stations,
maintenance of equipment (M/E) facilities, and maintenance of way (M/W) facilities (see
square footage statistics in table on page 10). Amtrak’s major passenger rail stations include
Penn Station New York, 30th Street Station Philadelphia, Baltimore Penn Station, Washington
Union Station, Boston Back Bay Station, Chicago Union Station, Los Angeles Union Station,
Seattle King Street Station, and New Orleans Station. The capital reinvestment in these
stations has not kept pace with the deterioration of many of the facilities’ sub systems. The
following picture illustrates the type of deterioration that takes place to sub systems that are
critical to the support of the facility super-structure.

                                         Corroded Girder




                                               12
       Amtrak also owns almost 182 miles of fencing and over 15 miles of retaining walls that
are included in the inventory of structural assets. Although these are not high-profile assets,
the fences are essential to insure the safety of rail passenger operations and the retaining
walls are required to support the railroad fill sections. The following picture on the left
illustrates a section of right of way fencing that is currently a potential hazard since, in its
current condition; it will not adequately deter trespassers from entering the right-of-way.
The following picture on the right illustrates the deterioration of a retaining wall that
compromises its ability to adequately support the adjacent right-of-way.




        Amtrak’s Engineering Department, which issued a report in FY 2007 on the State of
Good Repair (SOGR) of the                                       Capital Replacement Cost
company’s infrastructure assets,                                                         Source:

estimated that it would cost over                     $6,000
                                                                                         Engineering 2007 SOGR Doc.


$17 billion to replace Amtrak’s
current infrastructure assets. As                      $5,000


illustrated in the following bar                       $4,000

graph, the NEC main line has the
highest asset replacement cost              (Millions) $3,000


and its structures account for                          $2,000

almost 50% of that value.
Structures include all bridges,                         $1,000


tunnels, fencing, retaining walls,                           $0                                      Structures

stations, rolling stock and right-                                                               Electric Traction
                                                             NEC



                                                                   Springfield




                                                                                             Communication & Signals
                                                                                 Harrisburg




of-way maintenance facilities,
                                                                                              Albany




                                                                                         Track
                                                                                                       Central




                                                                                                                 West




offices, and ancillary buildings.
Structures account for such a
large percentage of the total
replacement cost because of the high unit cost to replace the major infrastructure assets of
moveable bridges, major stations, and the Baltimore Tunnel. For example, the replacement
of the movable bascule of the Thames River Bridge in Connecticut, which is a major but
partial rehabilitation of this asset, cost $76 million to complete. Amtrak owns and maintains
12 other moveable bridges that have similar capital upgrading requirements.




                                                       13
CAPITAL REINVESTMENT LEVELS

        There have been wide variances in the amount of capital reinvested each year to
maintain Amtrak’s infrastructure assets. These variances have been the product of a
combination of when Amtrak acquired the infrastructure assets and the amount of capital
funding that was appropriated to Amtrak by the Federal Government. As previously
described, the majority of Amtrak’s assets are located in the Northeast Corridor (i.e. NEC
mainline between Washington and Boston, Springfield Line, Harrisburg Line, and Albany
Corridor). In 1976, Amtrak acquired the NEC in a run-down condition due to years of
deferred maintenance that occurred while the railroad was under the stewardship of the
Penn Central and, for a brief time, Conrail. Subsequent to Amtrak’s acquisition of the
Northeast Corridor (NEC), the US Congress authorized a $1.7 billion, five year capital
program to reduce deferred maintenance, improve system reliability, and reduce end-point
running times in the Northeast Corridor. This investment of capital funds did produce many
of the anticipated operating benefits, but this initial infusion of capital funds was not followed
up with sufficient levels of capital funding to properly maintain and replace the infrastructure
assets as they reached the end of their useful service life. This phenomenon is illustrated in
the following graph that compares the actual amount of capital funds that was invested in
the NEC infrastructure each year to the amount of capital that would have been required to
maintain these assets in a “State of Good Repair.”
                                NEC Capital Investment History
      Investment Millions ($)                       Data Source: Engineering SOGR Doc.
           500
           450
                                Actual Annual Investment
           400
           350                                     Annual Capital
           300                                     Replacement Value
                                                   SOGR
           250
           200
           150
           100
            50
             0
              76   78 80    82 84 86       88   90 92    94   96 98    00   02 04 06
                                                Fiscal Year


The blue line illustrates the wide variances in the amount of capital funds that were invested
in the NEC each year, which is directly related to the amount of capital funds that Congress
had appropriated to Amtrak. The red line is Amtrak’s Engineering Department’s estimate of
the amount of capital that was required in each fiscal year to maintain the railroad
infrastructure in a state of good repair. This amount increases in FY 2000 to reflect the



                                                        14
increase in capital assets that occurred from the electrification of the NEC between New
Haven and Boston.

       It should be noted that the red line estimates the amount of capital that is required
each year to maintain the assets at a constant level of “State of Good Repair,” but it does not
include capital that is required to eliminate any pre-existing levels of deferred maintenance
(i.e. infrastructure that are beyond their design service life.) As previously described, the
NEC did have a significant amount of deferred maintenance when Amtrak acquired it, and
consequently, the red line understates the amount of capital that would have been required
to both eliminate the deferred maintenance and continuously maintain the infrastructure
assets at a “State of Good Repair.”

STATE OF GOOD REPAIR

        Amtrak Engineering has defined that a “State of Good Repair” exists when the
infrastructure assets are being maintained/replaced before the assets reach the end of their
design life, which means that there is no deferred maintenance of infrastructure assets.
Although the design life of an asset may vary because of its specific use (e.g. the design life
of rail on straight track vs curved track), it is reasonable to use an average design life when
assessing the overall “State of Good Repair” of infrastructure assets and preparing high-level
capital funding estimates. This approach was taken by Amtrak’s Engineering Department to
estimate the relative “state of good repair” of the NEC and the results are summarized in the
following table. This table provides both a numeric and color coded identification of the
percentage of assets, measured in terms of their replacement cost, that were considered to
be in a “State of Good Repair” during FY 2007. That is, 70% of Amtrak’s infrastructure

                                   Infrastructure Condition
                                   % at State of Good Repair
                                                                    Data Source: Eng. SOGR Doc.
                            NEC   Springfield   Albany    Harrisburg   Central      West     Total

          Track            81%       86%         93%        88%          92%        97%      83%

Communications & Signals   82%       96%         95%        32%          86%         5%      78%

     Electric Traction     54%        NA             NA      8%           NA         NA      48%

        Structures         63%       84%         88%        79%          53%        63%      64%

           Total           69%      86%     90%              69%         65%        68%      70%
       Color Convention:   85% - 100%   60% - 84%         0% -59%

assets are in a “State of Good Repair” or conversely 30% of Amtrak’s assets are beyond their
design service life, which is a measure of deferred capital reinvestment (i.e. $5.2 billion.)
This chart illustrates that every infrastructure discipline and every geographical area has
deferred maintenance. It also illustrates that, although electric traction has the highest


                                                15
overall percentage of deferred maintenance, the other infrastructure disciplines had critical
levels of deferred maintenance at certain geographical areas (e.g. Communication and
Signaling on the Harrisburg Line).

INFRASTRUCTURE EXPENSES AND OPERATING RELIABILITY

        There is a close relationship between the condition of a railroad’s infrastructure and
the railroad’s operating and financial performance. The following sequence of relationships
describes how the condition of the infrastructure impacts the factors that determine
operating and financial performance:

     •    deteriorated infrastructure conditions will increase the frequency and severity of
          asset operating failures (i.e. defects),
     •    the increase in asset defects will increase unscheduled maintenance and the
          operating expenses required to complete repairs,
     •    asset defects will also increases the frequency and length of en-route train delays
          and possibly decrease train operating speeds,
     •    increases in train delays will negatively impact train on-time-performance (OTP),
     •    decreases in train operating speeds will lengthen train schedules,
     •    the combination of poor OTP and longer train schedules will negatively impact train
          ridership and revenue.

The latter part of this chain of relationships (i.e. relationship between train delays, OTP, train
schedule, and train revenue) has been explored in greater detail in Amtrak’s OIG Evaluation
Report E-09-02 Financial Impact of Equipment Delays.

        If it is agreed that infrastructure condition can affect the operating and financial
performance of the company, then it should logically follow that increased capital investment
in the infrastructure should also have a positive impact on both operating and financial
performance of the company. To test
this, we first compared infrastructure              NEC Capital Investment vs Infrastructure-related Train Delay

capital investment levels to                   $350                                                              70

infrastructure performance, as
                                               $300                                                              60
measured by infrastructure-related
                                                                                                              Delay Minutes per 10K TM




train delays. As shown in the graph to         $250                                                              50


the right, for the time period FY ’01 to                                 Capital
                                                   (Millions)




                                               $200                                                              40

FY ’07, there appears to be a strong                                     Investment

                                               $150                                                              30
correlation between the level of capital                                                      Train
                                                                                              Delay
funding and infrastructure-related             $100                                           Minutes            20


train delays. Upon closer examination,          $50                                                              10

there appears to be a one year time
                                                 $0                                                              0
lag between changes in capital                        01       02       03        04       05       06        07

investment and changes in
                                                                               Fiscal Year



infrastructure performance. For example, the decrease in capital funding that occurred from


                                                                16
FY ’01 to FY ’02 was followed the next year by an increase in infrastructure related train
delays (i.e. reduced level of infrastructure performance).

       We then compared infrastructure investment levels to core operating expense levels
for the FY ’01 to FY ’06 time period. As illustrated in the following graph, we noted a similar
strong correlation between infrastructure capital investment levels and its core operating
expenses. Also similar to the
previous comparison, there was                            NEC Infrastructure
a one year time lag between                 Capital Investment vs Core Operating Expenses
                                                                        Core Expenses from FIS-Fingate
changes in capital investment         350                                                              155

and the corresponding change          300                                                              150


                                        Capital Investment ($ Millions)
in core operating expenses.




                                                                                                                                               Core Operating Expenses ($
                                                                                                       145
                                                                          250

                                                                                                                                         140




                                                                                                                                                        Millions)
                                                                          200
                                                                                                                                         135
                                                                          150
                                                                                                                                         130

                                                                          100
                                                                                Capital Investment        Core Operating Expenses        125

                                                                           50                                                            120


                                                                            0                                                            115
                                                                                 01          02      03         04        05        06
                                                                                                      Fiscal Year


        Although our analysis shows a fairly strong historical correlation between increased
capital investment and reductions in both infrastructure-related train delays and
infrastructure core operating expenses, capital investment levels should not be considered
the only factor in these positive developments. At the same time that the capital investment
level was increasing, the Engineering Department was implementing actions to both reduce
infrastructure-related train delays and the core operating expense levels. For example, to
help improve train OTP, the Engineering Department had established goals for each of its
divisions to reduce the defect related delays by infrastructure discipline (i.e. track, ET, C&S,
Structures) and these goals are related to the overall OTP goals of Amtrak’s Acela train
service. Actual performance was measured against these goals on a weekly basis and
reviewed at the assistant division engineer level. To improve financial performance, the
Engineering Department implemented management actions that helped it to reduce its
operating expenses by approximately 11% during this five year time period when the US
economy experienced a 14% inflation rate as measured by the Consumer Price Index.

        To summarize, our analysis revealed that, historically, increases in capital investment
coupled with strong management actions has resulted in significant improvements in
infrastructure reliability and financial performance. This appears to be a recipe for future
success.




                                                                                      17
SUMMARY – AMTRAK INFRASTRUCTURE

       The review of Amtrak’s infrastructure and the history of its capital re-investment
provided the following information:

     •   Amtrak owns and maintains over $17 Billion (FY ’07) of infrastructure assets that are
         located throughout the United States.

     •   The majority of Amtrak’s infrastructure assets are located in Amtrak’s Northeast
         Corridor.

     •   Due to past under-funding of capital programs, it is estimated that up to 30% of
         Amtrak’s infrastructure assets are not being maintained in a SOGR and that over
         $5.2 Billion of capital funding is required to eliminate the related deferred
         maintenance.

     •   Even though there had been a history of under-funding capital program
         requirements, the recent increases in capital funding for infrastructure programs and
         the Engineering Department’s management actions have contributed towards:
                 o an overall reduction in infrastructure related train delays, and
                 o an overall reduction in infrastructure operating maintenance expenses.




                                              18
                        INTERNATIONAL BENCHMARKING

    Amtrak’s NEC infrastructure maintenance program was benchmarked to the infrastructure
maintenance programs of European railroads to identify any significant gaps in the efficiency
and effectiveness of Amtrak’s program and to reveal any potential areas for improvement.
Although there were significant challenges to insure that the appropriate measures were
being used to compare infrastructure maintenance programs for railroads of different sizes,
operating conditions, and national economic factors, the international benchmarking
produced credible results because:
    1. Amtrak’s asset and operational characteristics match remarkably well with its peer
       European railroads, and
    2. There is an established benchmarking methodology that takes into consideration
       factors outside the control of the infrastructure maintainer (e.g. currency, purchasing
       power, labor cost levels, etc.).

COMPARATORS

        The review compared Amtrak’s NEC-infrastructure maintenance program to that of
fifteen (15) European railroads (see the following illustration and table) that cumulatively
account for 144,600 track miles of railroad. This table identifies the infrastructure system
managers since, contrary to Amtrak, many of the European countries have separate
managers for their rail operations and for their infrastructure operations. All benchmark
results have been made anonymous for confidentiality reasons.

                             Amtrak’s Peer Railroads in Europe


                                                                     Railroad/                             Network size
                                                   Country
                                                                     Infrastructure Manager              [main track-miles]

                                                   Austria           Österreichische Bundesbahnen (RR)           4.700

                                                   Belgium           Infrabel (IM)                               3.900

                                                   Denmark           Banedanmark (IM)                            2.100

                                                   Finland           Ratahallintokeskus (IM)                     4.500

                                                   France            Réseau Ferré de France (IM)               30.500

                                                   Germany           Deutsche Bahn AG (RR)                     36.300

                                                   Ireland           Iarnród Éireann (RR)                        1.500

                                                   Italy             Rete Ferroviaria Italiana (IM)            16.200
                                                                     Société Nationale des Chemins
                                                   Luxembourg                                                     300
                                                                     de Fer Luxembourgeois (RR)
                                                   The Netherlands   ProRail (IM)                                3.000

                                                   Norway            Jernbaneverket (IM)                         2.700
                                                                     Administrador de Infraestructuras
                                                   Spain                                                         9.200
                                                                     Ferroviarias (IM)
                                                   Sweden            Banverket (IM)                              7.400

                                                   Switzerland       Schweizerische Bundesbahnen (RR)            3.000

                                                   United Kingdom    Network Rail (IM)                         19.300




                                              19
        Amtrak’s OIG contracted with BSL Management Consultants to participate in the
benchmarking study since BSL is a European based company with over 12 years of
experience benchmarking the infrastructure maintenance programs of European Railroads.
BSL has worked with the UIC (Union Internationale de Chemis de Fers – International Union
of Railroads) and the European Railroads to develop a comprehensive data base of the
European infrastructure maintenance programs. BSL has also developed an agreed upon
methodology 3 that normalizes the cost drivers of infrastructure maintenance so that valid
comparisons can be made of the maintenance expenditure levels of the various railroads.

       The NEC was chosen for the comparison since both its infrastructure and operations
are very similar to those of the European railroads. For this comparison the NEC was
subdivided into two sections, one designated as “Spine” that includes 1,243 electrified main
track miles between Washington, DC and Boston, Massachusetts, the other designated as
“NEC” that also includes the 361 main track miles from the two feeder lines to Harrisburg and
Springfield for a total of 1,604 main track miles. The map below shows Amtrak’s routes as
they were considered for the Benchmarking.

                              Amtrak NEC’s Infrastructure as benchmark reference
                                                                        Albany

                                                                                                                            Boston
                                                                                  SPG-Feeder               Springfield
                                                                                  63 route miles
                                                                                  86 track miles
                                                                                  6 mUS$ maintenance
                                                                                  2 mUS$ renewal


                                                    not considered                                                       Providence

                                                                                                                           NED-Spine
                                                                                                                           156 route miles
                                                                                                                           350 track miles
                                                                                                                           29 m$ maintenance
                                                                                                            New Haven
                                          Feeder Lines                                                                     24 m$ renewal



                                                                                                 not an Amtrak property
                                  HRB-Feeder
                                                                                  New York
                                  104 route miles
                                  275 track miles                                                      Spine
                                  10 mUS$ maintenance
                                  73 mUS$ renewal                            Newark

                                                                                               NYD-Spine
                                                                        Trenton
                Harrisburg                                                                     97 route miles
                                                                                               389 track miles
                                                                                               50 mUS$ maintenance
                                                                Philadelphia                   61 mUS$ renewal



                                                        Wilmington
                             Baltimore
                                                           MAD-Spine
                                                           146 route miles
                                                           504 track miles                                                             N
                                                           46 mUS$ maintenance
                                                           53 mUS$ renewal


                               Washington, DC




3
    This methodology is described on page 27 of this document.


                                                                                 20
PHYSICAL PLANT AND OPERATIONS

       It is reasonable to compare Amtrak’s infrastructure maintenance program to that of its
European Peer passenger rail systems since the critical features of Amtrak’s NEC physical rail
system and its operation are very similar to those of its European Peers and a normalization
process can be used to account for any significant variances that do occur in these factors.
The following chart illustrates how Amtrak’s infrastructure assets and operational
characteristics compare to those of the European average for each characteristic. For this
comparison, the European averages have been indexed to 1, and Amtrak’s value for each
characteristic has been plotted relative to the European index. With the exception of Freight
Train Weight, most of Amtrak’s parameters are very close to that of the European average.

                                    NEC's deviation from European sample's average

                                                           Share of multiple
                                                                track

                                        Freight train                             Degree of
                                           weight                               electrification


                                    Passenger                                            Density of
                                   train weight                                           turnouts

                                                                         Average index = 1
                                      Gross
                                                                                          Density of
                                     tonnage
                                                                                           stations


                                                                                Share of tunnels on
                                       Train frequency                             route length
                                                  Share of bridges on route
                                                           length


       Note: European values for the asset characteristics and operational parameters have been indexed to 1 and Amtrak’s
                                    comparable value has been plotted as the blue diamond.



The following series of charts illustrate how the characteristics of Amtrak’s infrastructure
assets and operations in the NEC compare to that of each European railroad.




                                                               21
                                       Share of multiple track                                                                                                Degree of electrification
                                               [% of total route length]                                                                           [share of electrified main track and total main track]
  [%]                                                                                                                           [%]
      100
100                                                                                                                                 100
              93                                                                                                           100              95
                                                                                                                                                                                                                 Ø = 66


 75
                                                                                                                              75


                                                                                                                 Ø = 42
 50                                                                                                                           50



 25                                                                                                                           25




  0                                                                                                                            0
      Spine NEC         R1    R2     R3     R4      R5     R6       R7    R8    R9    R10 R11 R12 R13 R14 R15                       Spine NEC      R1   R2   R3   R4   R5   R6   R7   R8   R9   R10 R11 R12 R13 R14 R15




      The NEC is characterized by a higher percentage of multiple tracks and electrification than
      the average percentage for the European railroads. However, there are three European
      railroads that have the same degree of electrification as Amtrak’s NEC.

                                   Density of turnouts in main track                                                                                         Density of passenger stations
                                                                                                                              [units/
    [units/
                                                                                                                          main track-mile]
main track-mile]



                                                                                                                              0,4
      2


                                                                                                                              0,3                                                                                  Ø = 0,24
                                                                                                              Ø = 1,22
          1,25
                 1,10
                                                                                                                              0,2           0,19
      1                                                                                                                              0,17



                                                                                                                              0,1



      0                                                                                                                        0
          Spine NEC      R1     R2     R3      R4     R5      R6    R7    R8    R9   R10 R11 R12 R13 R14 R15                        Spine NEC      R1   R2   R3   R4   R5   R6   R7   R8   R9   R10 R11 R12 R13 R14 R15




      The turnout density describes the average number of turnouts per main track-mile. Here,
      Amtrak’s NEC is very close to the European average. However, the density of stations on the
      NEC is less than the European average, with some European railroads having more than
      twice the Amtrak station density.


           [1.000 train-miles/
                                                              Annual train frequency
                                                                                                                                                    Similar to the density of passenger
            main track-mile]

                                                                                                       freight trains
                                                                                                                                                    stations, the NEC’s train frequency,
                   30                                                                                                                               which includes traffic by other
                                                                                                       passenger trains                             operators, is slightly less than the
                   20                                                                                                           Ø = 15,7
                                                                                                                                                    European average, with two
                         13,5
                                                                                                                                                    European railroads having train
                                11,9
                                                                                                                                                    frequencies more than twice that of
                   10
                                                                                                                                                    Amtrak. Freight train frequency on
                                                                                                                                                    the NEC is noticeably lower than
                   0
                         Spine NEC        R1     R2      R3        R4    R5    R6    R7   R8   R9   R10 R11 R12 R13 R14 R15                         that on European RRs.




                                                                                                                         22
             One of the major cost drivers of infrastructure maintenance is the amount of tonnage
      operated over the railroad. The following graph (left) shows that the NEC carries above
      average gross tonnage per track mile compared to European networks. This is primarily due
      to higher weight of US passenger cars and locomotives, which are roughly double the weight
      of the European average.


                                             Annual gross tonnage                                                                    Average passenger train weight
                                                                                                           [gross tonnes/
[million gross ton-miles/
                                                                                                               train]
    main track-mile]


          10
                                               Freight trains                                               500

               7,87
          8                                 Passenger trains
                      7,12                                                                                  400
                                                                                                                                                   Ø = 268
                                                                                                Ø = 5,82

          6                                                                                                 300


          4                                                                                                 200


          2                                                                                                 100


          0                                                                                                    0
               Spine NEC     R1   R2   R3     R4     R5    R6   R7   R8   R9   R10 R11 R12 R13 R14 R15             Spine NEC   R1   R2   R3   R4   R5   R6   R7   R8   R9   R10 R11 R12 R13 R14 R15




      Although there were a few instances where there were significant differences in network and
      operational parameters, it can be seen that on the average the NEC and European railroad
      networks match well and build a solid foundation for a cost and performance benchmarking.


      Asset Age Comparison

           The comparison of infrastructure asset ages is an important element in the
      benchmarking process since the age of an asset has a significant impact on its maintenance
      costs 4 , especially when the asset is obsolescent and not in a State of Good Repair.
      Consequently, the age distributions and average age of Amtrak’s major asset groups were
      compared to that of the European railroads. The following charts and narrative provide an
      age comparison (as of 2006) of Amtrak rail, turnouts, and under-grade bridges to that of the
      European railroads.




      4
       A description of the relationship between infrastructure asset age and its maintenance costs is included in the discussion
      on Life Cycle Costs on page 50 of this evaluation.


                                                                                                     23
               Amtrak's Age Distribution of Rail                                                                         Peer Group Comparison
                                                                                                                         for Average Age of Rail

  [miles]                                                                                                 [years]

                                                                                                               33
                                                                                                                               Amtrak’s target
                                                                                                                               half life: 22 yrs.
200                                                                                                                                                              30
                                                                                                          30                                                               29
                                                                                                                                                  28
                                Ø age =
                              32,5 years
150                                                                                                                      24
                                                                                                                                        23
                                                                                                                                                                                22
                                                                                                                                   21
100                                                                                                                           20                                      19
                                                                                                          20
                                                                                                                                                            19

                                                                                                                    16
                                                                                                                                                       15
 50                                                                                                                                          14



  0                                                                                        installation   10
                                                                                           year                NEC R1 R2 R3 R4 R6 R7 R8 R9 R10R11R12R13R15
   1940       1950          1960         1970          1980           1990          2000
      Amtrak                                                                                                   Amtrak
      Data available for MAD, NYD, HRB,                                                                        Expected lifetime (SOGR)                           44 yrs.
      equiv. 50% of NEC, 2.028 rail miles, other data not available                                            Target average age                                 22 yrs.
                                                                                                               Regeneration equilibrium                           ~2,3% p.a.
                                                                                                               Average annual replacement¹                        ~92 rail-miles




           The above graphs illustrate how the age distribution and the average age of rail on
Amtrak’s NEC compares to that of the rail on the European railroads. It is obvious to see
that investments in new rail were not done on a continuous basis, but on an irregular basis
when capital funding was available. The investment in new rail funded by the Northeast
Corridor Improvement Project (NECIP) in the late 1970’s and by the Rail Revitalization and
Renewal Act in the 2000’s clearly shows up on this graph. The average age of the NEC’s rail
is 33 years compared to a significantly lower average of 21 years in Europe. Age distributions
also reflect how much of the rail is already beyond its service life and how much will have to
be renewed within the upcoming years. It should be noted that this assessment of State of
Good Repair uses age as the only criteria. In reality, other factors are considered by Amtrak
before any rail is renewed. For example, rail in curves do not achieve 44 years of average
                                                        life expectancy due to higher wear while
   [miles]
                          Rail becoming
                                                        straight rail might have a longer service life.
                          over aged
                          within next 10
                                                        The chart to the left shows the same age
  200                     yrs. (29%)*
                                                        distribution, but now highlights (in red) the
                                    ~ 585 miles         rail that already exceeds the typical average
  150
                                                        lifetime of 44 years and how many miles of
                                                        rail that will have to be renewed within the
  100      Rail over aged
           > 44 yrs.                                    following ten years (in yellow). The chart
           (16%)*
                                                        above also illustrates the annual rate that
      50      ~ 327 miles
                                                        rail needs to be renewed on the NEC (92
                                                        rail-miles per year) to insure this asset is in
      0
                                           installation
                                           year         a SOGR and not operated beyond its service
       1940 1945 1950 1955 1960 1965 1970 1975 1980 1985 1990 1995 2000 2005

                                                        life.
                                   *: Percentage refers to sample size of 2,208 miles




                                                                                                          24
       Similar to track, turnouts in the NEC are a major type of track asset that are on
average older than turnouts in Europe. As illustrated in the following charts, the NEC’s
turnouts are on average 29 years old while the European average is just over 20 years. The
age distribution chart shows that the investment in new turnouts peaked during the NECIP
when capital funding was available for infrastructure investments. The following Age
Distribution Chart also illustrates the 686 turnouts that were beyond their useful service life
and should be renewed. Based upon the estimated 32 year service life of turnouts and the
roughly 2,200 turnouts that are in the NEC, Amtrak would have to replace, on the average,
69 turnouts per year to maintain these assets in a State of Good Repair. Any replacement
rate that is less than this will, in the long term, increase the average age of the turnouts and
build up an investment back log.


              Amtrak's Age Distribution of Turnouts                                           Peer Group Comparison for
                                                                                               Average Age of Turnouts

  [units]                                                                                [years]


                                                                                         30   29
250
                                                                                                        28        Amtrak’s target
                                             Turnout units over
                                                                                                                  half life: 16 yrs.
                                              aged within next
                  Turnout units
200                                              10 years                                                                        25
                   over aged
                                                  (32%)
                    >32 yrs.                                                                                                23
                     (31%)¹
                                                                                                                       22
                                         699 units
150
                                                Ø age =
                    686 units                 28,7 years                                 20                       19

100
                                                                                                   15        16                       15


 50



                                                                          installation   10
  0                                                                       year                NEC R1    R2 R3     R4 R6 R11 R13 R15
   1940        1950       1960    1970    1980       1990     2000
      Amtrak                                                                                  Amtrak
      Data available for MAD, NYD, HRB,                                                       Expected lifetime (SOGR)                32 yrs.
      equiv. 60% of NEC, 1.293 units, other data not available                                Target average age                      16 yrs.
      1) Based on NEC total                                                                   Regeneration equilibrium                ~3,1% p.a.
                                                                                              Average annual replacement¹             ~69 turnouts




                                                                     25
        The age distribution of the approximately 1,000 NEC under-grade bridges is illustrated
in the following chart. Although the under-grade bridges have a life expectation of 100 to
                                                      150 years, their renewals typically
                                                      require a long planning horizon and
               Amtrak's Age Distribution
                of Undergrade Bridges                 multi-million dollars of capital funding.
   [ number]                                          This chart also illustrates that 2/3 of the
   150
                                            100%
                                                      NEC bridges are 85 years or older.
                                                             75%

  100
                                      66% of all bridges
                                      are 85 yrs. or older   50%


   50
                                                             25%



    0                                                        0%    ye ar built
        1891-1895
        1896-1900




        1921-1925
        1926-1930




        1951-1955
        1956-1960




        1981-1985
        1986-1990
        1901-1905




        1931-1935




        1961-1965




        1991-1995
           < 1881
        1881- 1885
        1886-1890




        1906-1910
        1911- 1915
        1916-1920




        1936-1940
        1941- 1945
        1946-1950




        1966-1970
        1971- 1975
        1976-1980




        1996-2000
           > 2001



        Amtrak
        Data available for equiv. 85% of NEC,
        983 bridges, other data not available




       In summary, the average age of major Amtrak infrastructure assets are significantly
higher than the average age of comparable assets on European railroads, a substantial
portion of Amtrak’s assets remain in service beyond their expected service life, and up to
another 1/3 of these major assets will be reaching the end of their expected service life over
the next 10 years.



BENCHMARKING METHODOLOGY

        The objective of the benchmarking process is to compare Amtrak’s infrastructure
maintenance costs to the infrastructure maintenance costs of comparable railroads. The
infrastructure maintenance costs include all operating and capital expenditures required to
maintain the base rail line (i.e. excludes new construction for expansion or increased
capacity). The infrastructure assets include track, communication and signaling, electric
traction, and bridges & tunnels. The benchmarking excludes the infrastructure maintenance
related to fixed structures, such as stations and office buildings, since the data base of
European infrastructure maintenance did not include these expenses.

        The benchmarking approach quantifies the infrastructure maintenance cost as the sum
of all annual expenditures and a multi-annual average of capital investment expenditures for
the defined infrastructure assets. A multi-year average is used for the annual capital
investment to take into consideration the often wide variances in annual capital investments
that have historically occurred due to irregular levels of capital budgets. The amount used
for the capitalized renewal expenses is based on the average of five years of actual capital


                                                                   26
expenditures. This is an acceptable approach to estimate the average annual capital
expenditure since the size of the network includes a statistically significant number of assets
and the regeneration cycle for the asset renewals is very long. This is the same approach
that has been used in many successful UIC benchmarking projects.


NORMALIZATION PROCESS

        Although Amtrak’s infrastructure characteristics and operations are very similar to that
of the average characteristics of European railroads, any differences in network configuration
or system operation could cause maintenance costs to vary and, therefore, could possibly
skew any benchmark results. For example, if railroad A has double the number of turnouts
per main track-mile than railroad B, railroad A would have higher maintenance costs. A cost
normalization process will adjust a railroad’s maintenance cost level by taking into
consideration the different network configurations and system operations. Normalized costs
reflect what a railroad’s specific cost level would be if it operated under the circumstances of
the reference railroad. For this comparison Amtrak is the reference case, so all benchmark
partners’ costs were normalized to Amtrak’s specific characteristics for the parameters shown
in the following chart.

                                       Normalization Factors



                                 1   Purchasing Power Parities


                                 2   Individual labor cost levels


                                 3   Degree of electrification


                                 4   Single vs. multiple track


                                 5   Turnout densities


                                 6   Track utilization




Consequently, after the normalization process the infrastructure maintenance cost per main
track-mile for the European railroads will be reported as if:
       • the railroads had a common purchasing power parity with the US
       • the company’s labor costs matches Amtrak’s labor costs
       • their degree of electrification was 95% as on the NEC
       • their network had 93% multiple track as on the NEC
       • their turnout density was 1.1 turnouts per main track-mile
       • their train frequency was 11,900 trains miles per track mile, and
       • their annual gross tonnage was 7.12 million gross ton miles per main track-mile.


                                                    27
Each normalization step is a conversion with individual formulas based on experience or
regression analyses developed in the UIC benchmarking approach. It is important to point
out that the normalization procedure only harmonizes external factors that cannot be directly
impacted by the Engineering Department’s maintenance programs.




                                             28
RESULTS

       The benchmarking results have been subdivided into two sections.

   1. The first section compares the performance of Amtrak’s infrastructure to that of its
      European peer railroads.
   2. The second section compares Amtrak’s infrastructure maintenance cost levels to that
      of its European peer railroads.


Performance

        Although there was not a significant amount of data available regarding the
performance of European infrastructure, the data that was available indicated that Amtrak’s
infrastructure performed as reliably as, if not more reliably than, the infrastructure of its
European peers. The relative performance of the countries’ railroad infrastructure was
compared based upon the reliability of these assets and its ability to support the on-time-
performance of passenger trains. The performance of the Communication & Signaling and
the Electric Traction systems are measured as the number of annual failures that impact train
on-time performance per 100 main track miles. The performance of the track system is
measured as the percentage of the network that has been impacted by temporary speed
restrictions due to poor track quality.

        As illustrated in the following chart on the left, the NEC’s Communication & Signaling
failure rate is slightly below the European average and the chart on the right illustrates that
the NEC’s ET failure rate matches the European average failure rate.

     The NEC's C&S failure rate is slightly below European
                                                                                                                      For NEC's ET the failure rate matches European average,
     average, good practice is still significantly lower
                                                                                                                      some peers have very low failure levels

                                          Train affecting C&S failures
                 [failures/                                                                                                                                       Train affecting ET failures
            100 main track-miles]                                                                                                     [failures/
                                                                                                                         100 electrified main track-miles]
                       234
                                                                                                                                     70    68


                 200
                                                                                                                                     60
                             173

                                                                                                                                     50
                 150                                                       Ø = 84
                                    129                                                          Ø lower 50%
                                          125                                                    of peers = 37                       40
                                                108
                 100                                                                                                                            28
                                                                                                                                     30
                                                      74                                                                                                                            Ø = 13                    Ø lower 50% of peers = 3,4
                                                           68    64
                                                                      59                                                                              20
                                                                           45                                                        20
                  50                                                                                                                                         16
                                                                                32                                                                                 14
                                                                                     27
                                                                                            18    16                                 10                                  8
                                                                                                                                                                              6    6     5     5    4
                                                                                                                                                                                                         2    1    1
                   0
                        R9   R12    R10   R13   R4    R2   Spi   R5   R7   R6   R3   R 15   R8    R11                                 0
                                                                                                                                          R13   R10   R12    R6    Spi   R3   R7   R11   R15   R5   R4   R9   R2   R8




                                                                                                                 29
There was less data available from the European railroads on track reliability. However, as
illustrated in the following chart, the NEC’s level of temporary speed restrictions for track is
very low compared to some of the European railroads that reported the related statistics.

                                  NEC's level of temporary speed restrictions for track is
                                  very low

                                                                    TSR due to poor track quality
                                                            share of network length affected multiplied by duration


                                                  [%]

                                                                               2,29



                                                2,0




                                                1,5                 1,45                  Ø = 1,3 (R2-R4)


                                                                                                   Ø = 0,8 (R2-R9)
                                                1,0




                                                0,5
                                                        0,24                              0,27

                                                                                                     0,00       0,00
                                                0,0
                                                        Spine        R2         R3         R4         R7         R9




As previously stated, the data that was available from the European railroads indicated that
Amtrak’s infrastructure performed as reliably, if not more reliably, than the average of its
European peers.

Maintenance Cost Level

        At the summary benchmarking level, Amtrak’s overall expenditures for NEC
infrastructure maintenance are 20% higher than the average normalized level of the 15 peer
European Railroads. As illustrated in the following BSL graph, Amtrak’s annual renewal and
                                                                            maintenance expenditures amount to
                    Normalized annual expenditures – total                  $208 thousand per main track mile
                      all peers normalized to NEC as reference case
                                                                            while the European railroads amount
    [1.000 US$/
   main track-mile]
                                                                            to an average of $174 thousand per
        380                                                                 main track mile, with individual RR
                               Renewal
                                                                            costs ranging from $91 thousand to
    300
            303
                                                                            $380 thousand per main track mile.
                                   Maintenance

                                                         Ø = 174
                                                                            This comparison includes both
    200
                208
                    197 194 191
                                 187 180                                    operating and capital expenditures on
                                                          Ø lower 50% = 118
                                         148                                infrastructure maintenance to insure
                                              123 122 117 117

    100
                                                               112 112
                                                                        91  that all expenses are included in this
                                                                            comparison and avoids any issues
      0
                                                                            related to different accounting rules for
        R1 R13 NEC R10 R7 R12 R5 R14 R11 R6 R15 R3 R9 R2 R4 R8              capitalizing expenses. It should be
            NEC             208
                                       Δ
                                  (unit cost)
                                                   Δ
                                                  (%)
                                                                            noted that this comparison cannot be
            Average         174       -34       -16%

            Good practice   118       -90       -43%



                                                                                       30
used to make any conclusions about the relative efficiency of the maintenance programs
since factors, such as the relative levels of deferred maintenance, plays such a significant
role in determining both the levels of renewal and maintenance expenditures.

       The cost performance of the railroads can be grouped in basically three cost level
clusters. The “lower 50%”, representing half of the sample with the lowest annual
expenditures, vary between $91 thousand and $148 thousand with an average of $118
thousand per main track mile. This level of expenditures, which can be defined as the “best
practice” maintenance level, is over 40% lower than Amtrak’s expenditures for the NEC. The
second cluster, which includes Amtrak, has expenditure ranges from $180 thousand to $208
thousand per main track mile. All these railroads have a relatively equal cost performance.
Then finally, two railroads stand out with high expenditure levels above $300 thousand per
main track mile.

       If Amtrak performed infrastructure maintenance on the NEC at the average
expenditure levels of the European peer railroads, it would be able to reduce its average
annual expenditure levels by over $50 million and if it could perform at the average level of
the lower 50% of the European peer railroads, it would be able to reduce its annual
expenditure level by almost $150 million.

        The following four charts, which utilize the same graphical conventions as the previous
chart, illustrate how Amtrak’s four disciplines of infrastructure maintenance (i.e. Track,
Communications & Signals, Electric Traction, and Structures) compare on a 1,000 $ US/main-
track mile basis to that of European railroads.

                                                   Track                                                                                                                                 C&S


  [1.000 US$/                                                                                                                   [1.000 US$/
 main track-mile]                                                                                                              main track-mile]

                                                                                                                                        83,2
          146,7
   150                                                                                                                             80
                                                   Renewal
                                                                                                                                                                                Renewal
                  121,0
                          115,1
                                  106,7                                                                                                        57,0
                                                          Maintenance               Ø = 82,0
                                                                                                                                   60
                                                                                                                                                      53,3
   100                                                                                                                                                                                 Maintenance
                                          89,9   88,1
                                                        84,4                               Ø lower 50% = 63,2                                                                                                             Ø = 34,0
                                                               80,7                                                                                          43,6
                                                                      73,7
                                                                             65,7                                                  40                                                                                       Ø lower 50% = 23,0
                                                                                    61,4                                                                            32,6   31,3
                                                                                           51,0   48,6                                                                            27,3
    50                                                                                                                                                                                   24,6   24,3   23,6
                                                                                                         40,5                                                                                                 21,4   20,3   19,1
                                                                                                                                   20




                                                                                                                n.a.   n.a.                                                                                                        n.a.   n.a.   n.a.
      0                                                                                                                             0
          R13      R7     R10     NEC     R12    R11    R5     R15    R3     R4     R9     R6     R2     R8     R1     R14              R13    R12    NEC    R5     R10    R9     R2     R6     R4     R11    R15    R3     R8     R1     R7     R14




                                                                                                                              31
                                   Electric Traction                                                                                                                   Structures

 [1.000 US$/                                                                                                               [1.000 US$/
main track-mile]                                                                                                          main track-mile]
                                          Renewal
         53,9                                                                                                                      19,6
                                                                                                                              20
                                                                                                                                                                         Renewal
   50
                44,7                                                                                                                       16,5

                       39,6                                                                                                                       14,8
   40                          37,5
                                                Maintenance                                                                   15                                                Maintenance
                                      35,8                                              Ø = 27,9                                                                                                      Ø = 10,3
                                                                                                                                                         12,2
                                             31,2                                                                                                               11,2
   30                                               28,0                                      Ø lower 50% = 19,9                                                       10,7
                                                           26,7   26,0   25,4                                                 10                                              8,7                           Ø lower 50% = 7,5
                                                                                                                                                                                    8,0
                                                                                19,8                                                                                                      7,4
   20
                                                                                       16,0                                                                                                     5,7
                                                                                              14,0   13,6
                                                                                                                               5                                                                      4,4
                                                                                                            9,5
   10


                                                                                                                  n.a.                                                                                       n.a.   n.a.   n.a.   n.a.   n.a.
     0                                                                                                                         0
         R5     R13    R1       R10   R12     NEC   R6     R8      R2    R11    R7     R3     R15    R4     R9    R14               R6     NEC    R9     R10    R11    R2     R12   R4    R3    R15   R8     R1     R5     R7     R13    R14




That is, for each of the infrastructure disciplines, there is a gap between Amtrak’s level of
operating maintenance and capital expenditures and that of the European peer group. As
previously stated, these comparisons of summary cost metrics do not determine which
maintenance programs are being managed effectively, but they do indicate the level of
savings in infrastructure maintenance expenses that Amtrak could attain by performing at the
level of its European peer group.

        The previous four charts are summarized in the following BSL gap analysis chart that
identifies the variance between Amtrak’s maintenance cost level and that of the European
average maintenance cost level (on the left) and that of the “best practice” maintenance cost
level for each infrastructure discipline (on the right). The annual cost per track mile of
Amtrak’s Track and C&S maintenance programs have the largest gap to the European peer
group, which highlights them as priority disciplines for necessary improvement activity.


                                                                    Gap Anal ysis Mainten an ce and Ren ewal Expe nditu res
                                                                  total am ount i n mi lli on US $ agai nst peer g rou p's avera ge and low er 50%

                                                                                                                                          NE C a g ainst av er ag e o f p ee r g ro up 's
                                          N EC ag a inst pe er gr o up 's av er ag e
                                                                                                                                                         low er 50%

                                [mUS$]                                                                                         [mUS$]
                                             Tr ac k        C& S            ET    Struc tures Infra                                          Trac k             C &S           ET     Struc tures           Infra
                                              onl y¹        onl y ¹        only ¹    onl y ¹  total ²                                        only ¹             only ¹        onl y ¹    only¹              total²


                                      0                                                                                              0




                                  -50                                                                                              -50




                                 -100                                                                                              -100




                                 -150                                                                                              -150


                              1) Ga p to peers wit h discipline specific data only
                              2) Ga p re gardin g all 15 pee rs


                                                                                                                         32
SUMMARY – INTERNATIONAL BENCHMARKING

      The benchmarking of Amtrak’s infrastructure maintenance program to that of the
European RRs revealed the following summary findings:

   •   The physical and operational characteristics of Amtrak’s NEC are remarkable similar to
       those of the European RRs, although there were a few instances where there were
       significant differences (e.g. freight and passenger train weight.)

   •   The average age of major NEC asset groups is significantly higher than the average
       age of comparable European RR infrastructure assets.

   •   Amtrak’s major infrastructure asset groups performed as reliably as the average
       European infrastructure performance.

   •   Amtrak spent approximately 20% more than the average European RR and 40% more
       than the “lower 50%” of the European RRs to maintain its NEC infrastructure assets.

   •   If Amtrak performed infrastructure maintenance and renewal on the NEC at the
       average expenditure levels of the European RRs, it would be able to reduce its
       average annual expenditure levels by over $50 million, and if it could perform at the
       average level of the lower 50% of the European RRs, it would be able to reduce its
       annual expenditure level by almost $150 million. The estimated $50 million to $150
       million performance gap is based upon Amtrak’s total operating and capital
       expenditures related to the maintenance and renewal of NEC infrastructure assets.




                                              33
                                          FINDINGS AND RECOMMENDATIONS


CAUSAL FACTORS IMPACTING EFFICIENCY AND EFFECTIVENESS

        Although there are numerous ways to define and measure efficiency, they all include
measures of output (i.e. a desired product or outcome) and input (i.e. the amount of effort,
expense, energy, etc.) that are required to produce the output. For the purposes of
measuring the efficiency of Amtrak’s Infrastructure Maintenance Program, it is reasonable to
measure efficiency in terms of the units and the cost of production. The following flow chart
is a Dimensional Analysis that illustrates how the basic production and cost elements inter-
relate to generate an efficiency metric.



                                                     Production and Cost Elements Impacting the
                                                       Efficiency of Infrastructure Maintenance


                                                              Working         Production Rate             Production
                                                      =        Hours
                                                                         x    (Units per work hour)   =     (# Units)


                                              Non-Productive
                                                  Hours

                                    Hours
                              =    at Work

                         Paid Hours
                         Not Worked

            Total Paid                                                                                                  Efficiency
              Hours                                                                                                      (Units/$)

                             Labor Rate
                         x     ($/Hour)


                                                    Labor
                                          =        Cost ($)

                                                                   Material
                                                          +        Cost ($)

                                                                               Other                      Total Cost
                                                                        +     Cost ($)                =      ($)




These production and cost elements were identified by Amtrak’s Engineering staff as the
critical elements that determine overall maintenance efficiency. It should be noted that these
same elements were identified by the European Infrastructure Maintainers during our review
of their “best practices.” For example, all infrastructure maintainers want to maximize the
number of working hours of each infrastructure maintainer. There are various methods and
technologies available to accomplish this objective, which will be described in the following
sections of this evaluation’s findings.




                                                                              34
        In addition to identifying the production and cost elements, we also identified the
endogenous (i.e. controlled by Amtrak Engineering) and exogenous (i.e. outside the control
of Amtrak Engineering) factors that impact the production and cost elements that determine
maintenance efficiency. These production and cost drivers have been added to the following
Efficiency Dimensional Chart to illustrate how the endogenous drivers (green) and the
exogenous drivers (red) impact each element of the Dimensional Chart. It can be seen that
some of the drivers impact more than one of the dimensional elements and consequently
have a greater impact on infrastructure maintenance efficiency. For example, the availability
of multi-year funding impacts Amtrak’s ability to attract and retain a skilled labor force and it
also impacts Amtrak’s ability to negotiate the optimal contract terms for long lead material
items.




                                                             Production and Cost Drivers



                                                         Working             Production Rate                   Production
                                                 =        Hours
                                                                    x        (Units per work hour)         =     (# Units)


                                         Non-Productive
                                             Hours

                               Hours                             Labor                               Skilled
                         =    at Work                          Agreements                            Labor

                    Paid Hours
                    Not Worked                                    FRA-                                Work
                                                               Regulations                           Process
       Total Paid                                                                                                            Efficiency
        Hours                                                                                                                 (Units/$)
                                                               Multi-Year-                      Equipment
                        Labor Rate
                    x     ($/Hour)
                                                                Funding                         Technology


                                               Labor
                                     =        Cost ($)

                                                              Material
                                                     +        Cost ($)

                                                                              Other                            Total Cost
                                                                   +         Cost ($)                      =      ($)
        Exogenous
        Driver

        Endogenous
        Driver




       Our findings and recommendations are organized around the major endogenous cost
drivers of skilled labor, work processes, and equipment technology and the exogenous
factors will be discussed as they relate to each of these cost drivers.




                                                                             35
WORK PROCESSES

         Our evaluation of Amtrak’s infrastructure maintenance program revealed that
significant opportunities exist to improve Amtrak’s production rate (i.e. units per work hour)
by improving its infrastructure maintenance work processes. As illustrated in the flow chart
on page 35, the level of production from Amtrak work forces is a function of how many hours
that are actually worked and the work force productivity, as measured by the number of
units produced per labor hour. Production per work hour is driven by a combination of the
skill level of the workforce, the type of maintenance technology, and the processes used to
perform the maintenance work. Listed below are six findings and recommendations related
to Amtrak’s opportunities to improve maintenance processes.


Finding No. 1 – Amtrak could benefit from having a comprehensive Infrastructure
Asset Management process in place that would enable the company to plan for
and implement optimal maintenance and renewal programs.


Discussion

       The Asset Management Primer 5 issued by the US Department of Transportation states
that asset management “is a systematic process of maintaining, upgrading, and operating
physical assets cost-effectively. It combines engineering principles with sound business
practices and economic theory, and it provides tools to facilitate a more organized, logical
approach to decision-making. Thus, asset management provides a framework for handling
both short- and long-range planning.” The two key objectives of asset management are to:

      1) provide the type, quantity, and quality of assets that are required to support the
         corporation’s strategic operating plans, and
      2) provide these assets in the most cost-effective way.


Asset Management Process

       Our review of the literature on asset management revealed that, although there are
various methods of describing the asset management process, they all included the basic
functions illustrated in the following process flow chart.




5
    Asset Management Primer, US Department of Transportation, December 1999


                                                        36
                               Asset Management Process Model




This process produces an asset management plan (AM) that takes into consideration:

   •   the   Level of Service required to support the strategic operating plan
   •   the   current state of infrastructure assets
   •   the   critical assets required for sustained performance (i.e. risk factors), and
   •   the   optimal capital investment and maintenance strategies based on “life-cycle costs”.

It should be pointed out that asset management is a data intensive process that is dependent
upon having both an up-to-date asset registry and the ability to analyze the available data to
optimize the financial and operating benefits of the asset management programs. The asset
register typically includes the following information:

             •   description (e.g. asset no., purchase date, drawings, contracts, pictures, etc.)
             •   location (e.g. GPS mapping, address)
             •   purchase costs
             •   annual depreciation
             •   accumulated depreciation
             •   maintenance costs
             •   condition
             •   performance
             •   use (e.g. gross ton miles per year)
             •   estimated service life
             •   actual, condition adjusted service life

The analytic capabilities required by this process include:

   •   the estimation of the expected and actual residual life time infrastructure assets. This
       is usually done by means of decay curves that are devised from condition ratings and
       usage over many years of observations
   •   life-cycle-cost models
   •   asset performance models
   •   failure and risk assessments
   •   evaluation tools for modeling different scenarios for maintenance, refurbish, and
       replacements alternatives.


                                                  37
Observations in Europe

        The majority of the European infrastructure maintainers we visited used sophisticated
infrastructure asset management processes to help them optimize the maintenance and
renewal programs of the infrastructure assets that are required to support the corporation’s
strategic operating plans.

          A prime example of how a European infrastructure maintainer coordinates its decision
making process is illustrated in the following asset management decision process used by
                                                                                NetWork Rail. It shows how the
    Asset management framework -                                                decision process begins on a
                        decisions                                               strategic policy level and leads
 Type of railway we want and
                                                                                down to the operational execution
 are prepared to pay for
                               Network policy
                                                                                level. It can be seen that this
                                 Usage and       Train services and capability/ process coordinates all asset
 Major decisions on
                               output definition capacity requirements
                                                                                management decisions to optimize
 maintenance, renewal and       Asset policies
                                                                                the programs that will provide the
 enhancement                   Standards and
                                specifications
                                                 Translation of policies into
                                                 practical specifications
                                                                                infrastructure assets required for
 Specification of maintenance,   Asset plans                                    the company’s planned rail
                                                                                operations.
 renewal and enhancement
 work                           Local delivery
                                             Optimised delivery and
                                plans        resource plans
 Scheduling and recording   Local delivery
 of work                      execution




       NetWork Rail’s Engineering Data Center (EDC) plays a critical role helping the
company to attain its goal of transforming the company from a find and fix philosophy to a
predict and prevent philosophy. NetWork Rail has concluded that switching to the new
maintenance philosophy has enabled them to improve the reliability of their infrastructure
assets and to optimize the efficiency of their maintenance programs. As an example of their
improved infrastructure reliability, NetWork Rail provided the following chart that illustrates
how the quality of their track structure, which is                     Level 2 Exceedences per mile

measured as level 2 deviations from standard per                                        2.400




mile, improved since they have implemented this                                         2.100




process. The EDC ensures that the investment of
                                                                                        1.800




capital and operating funds are optimized by
                                                                                        1.500
                                                                      Number per mile




scheduling asset replacements and renewals, labor,
                                                                                        1.200



                                                                                        0.900


machinery, and track outages to minimize the life                                       0.600



cycle costs of the infrastructure assets. It should be                                  0.300



noted that, to be able to perform the planning and                                      0.000
                                                                                            1999/00   2000/01   2001/02   2002/03   2003/04          2004/05   2005/06   2006/07   2007/08


scheduling of infrastructure maintenance, an asset
                                                                                                                                    Financial Year




                                                           38
data base must be available that provides a readily available record of the condition,
performance, use and maintenance expenses of all infrastructure assets.

        SBB in Switzerland is another European railroad that makes a conscious effort to
optimize its infrastructure
maintenance and renewal
expenditures. They have
developed an optimization
model to find the cost-optimal
balance of maintenance,
refurbishment, and renewal at
predetermined performance
levels. The chart to the right
illustrates how SBB optimizes
the life cycle costs of its
infrastructure assets, although
the actual modeling is far
more complicated and
detailed than that shown in
this chart.



        ProRail in the Netherlands also has an asset management system in place that helps
to determine the optimal asset decisions to attain the company’s corporate strategies. This
was accomplished by defining the
relationship between maintenance
activities/costs and asset performance,
the relationship between asset
performance and operating
performance, and the life cycle costs of
those assets which is very similar to the
process that SBB uses. For example, as
shown in the picture on the left,
ProRail’s asset management system
includes up-to-date pictures of its
infrastructure assets and an assessment
of its current condition. This
information is cataloged geographically
to support engineering decisions related to prioritizing projects and to phasing work to
optimize the efficient use of labor, equipment, and track time.

      As previously mentioned, to be able to optimize the infrastructure maintenance
programs, the railroads need to have a data base that provides a readily available record of


                                              39
the condition, performance, use and
maintenance expenses of all infrastructure
assets. Network Rail in England, as
illustrated in the flow diagram to the right,
uses state-of-the-art technology to measure
the condition of its infrastructure assets and
then efficiently transfers this data to its
asset registers, which are managed by its
Engineering Data Center, to provide up-to
date reports on asset condition. This
information is used, in combination with the
other asset register data, to make informed
decisions related to the maintenance,
upgrading, or replacement of infrastructure assets and the scheduling of any related work.

       Banverket of Sweden uses a web-based asset management system (BMS) developed
by Vagverket (the Swedish National Road Administration) to manage its infrastructure assets,
with modules for technical and administrative data, inspections, planning, maintenance
records, and documents. A condition class rating for every asset defect is used as a first step
in screening structures for repair, rehabilitation, and replacement. Currently, Banverket
bridge managers use their experience to prioritize projects, but a BMS module is being
prepared that will use present value calculations to determine optimal
maintenance/renewal/replacement strategies.

         During our visits to the European Railroads, we observed many examples of how they
have developed and effectively use an extensive database on the condition of their bridges.
For example, SBB and NetWork Rail have programs that provide up-to-date information of
asset condition through their inspection program, grade the assets based upon their
condition, develop the maintenance priorities based upon asset condition and use (e.g. type
or rail line), determine optimal level of maintenance/renewal, and then schedule the
maintenance/renewal work to minimize the impact on rail
operations and to optimize the efficiency of the
maintenance/renewal work. To obtain and record the
condition of their bridges, SBB utilizes specially trained
engineering employees (i.e. must past qualification training
and testing) to perform regular inspections of all bridges and
their supporting structures and record their findings on
computers while in the field. As illustrated in this picture, an
SBB employee is recording the results of his inspection of
the masonry support piers of a bridge while suspended
under the bridge. This process improves the reliability and timeliness of the bridge
inspections since the inspection conforms to the standard inspection process, the results are
input on site, and it avoids transcriptions errors that might occur when manual reports are
re-entered into an asset data base.


                                              40
        NetWork Rail utilizes the results of its inspection reports to rate the condition of its
bridges and then these ratings are used along with data on route/service type, material type,
deterioration rates, and required strength to decide on the proper maintenance intervention
(i.e. replace, strengthen, repair, waterproof, etc.) As previously stated, NetWork Rail’s
philosophy is to predict and prevent infrastructure asset failures and this process provides
them the basic information and disciplined process to accomplish it. Completing the
appropriate type or inspection at the proper frequency (i.e. time interval) is a critical element
of NetWork Rail’s overall program. Amtrak will consider if any portion of NetWork Rail’s, as
well as other European infrastructure maintainer’s, inspection program should be adopted by
Amtrak.

        In addition to the information we obtained from the European Railroads that we
visited, we learned that the UIC (Union Internationale Des Chemins De Fer) has completed a
4-year project addressing the maintainability of bridges in Europe. This project has produced
a wealth of information on the methods and processes available to optimize the
maintenance, renewal, and replacement programs of railway bridges. The UIC study has
incorporated the actual bridge inventory of 20 railroads and the technical expertise of 84
Institutes (e.g. University of Queensland, University of Maryland, etc.) and Companies (e.g.
Portland Cement Association, Laboratoire Central des Ponts et Chaussees, etc.) to research
the following subject areas.

     •   Condition Assessment
     •   Structural behavior and monitoring
     •   Repair and strengthening
     •   Dynamic effects and vibration
     •   Life cycle analysis

The UIC Bridge Project may provide critical information that Amtrak could utilize to improve
both the effectiveness and efficiency of its bridge maintenance and renewal programs.


Amtrak Asset Management

        Similar to the European Railroads, Amtrak Engineering is implementing an asset
management system (Maximo from IBM) that is to coordinate “what to do” (e.g. Inspections
and tests, root cause analysis) and “how to do it” (e.g. workforce allocation, maintenance
planning, financial accountability) to determine the optimal point for maintenance
intervention and capital investment. These goals are comparable to those of European
infrastructure asset management systems and it is reasonable to expect that, once
completed, Amtrak’s asset management system will provide the same level of benefits being
experienced by the European infrastructure maintainers.




                                               41
        Amtrak’s Engineering Department is currently in the process of completing its
infrastructure asset register by capturing the attribute data of its assets and it is also
implementing the processes required to capture labor and material expenses related to asset
inspection and maintenance. As illustrated in the following flow chart, Amtrak is still in the
beginning stages in its efforts to implement a comprehensive asset management process.




                  Color convention: high/medium/low degree of completion


Amtrak Engineering is commended for the significant progress that it has made towards
completing Amtrak’s infrastructure asset register and the collection of asset maintenance
expenses. It should be noted that the German railroad Deutsche Bahn required over ten
years to collect and input the data for its infrastructure asset register. Although Amtrak
Engineering has made significant progress towards implementing an effective asset
management system, there is still a long list of action items that must be completed before
Amtrak will be able to benefit from the system’s anticipated financial and operating benefits.
When completed, Amtrak’s infrastructure asset management system should:

     •   align the asset management plan with the corporate long range strategy
           o asset performance, availability, accepted risk level, regulatory compliance
     •   provide an up-to-date asset register
     •   assess impact of asset condition
           o predict asset failures, estimate residual asset life
     •   develop a life-cycle-cost and optimization model
     •   develop a business risk model
     •   develop methods to optimize maintenance work/procedures
     •   develop methods to optimize capital investment work



Recommendation 1 – That the Chief Engineer continue to develop and implement
an asset management process that will provide the appropriate data and business
decision processes required to optimize Amtrak’s infrastructure maintenance and
renewal programs.




                                                 42
Finding No. 2 – Amtrak could benefit from the expanded use of Industrial
Engineering techniques to optimize the use of resources on infrastructure
maintenance projects.


Discussion

       The information we collected during our interviews and field trips revealed that the
processes that Amtrak currently uses to complete infrastructure inspections and maintenance
are primarily determined by:

   •   Historic methods for completing maintenance tasks,
   •   Federal Railway Administration (FRA) regulations, and
   •   Available maintenance technology.

Although these production drivers are not 100% independent of each other, they can be
individually reviewed to identify better methods and procedures to perform infrastructure
maintenance work.

       It is reasonable that Amtrak’s current work processes are in large part determined by
the historic methods for completing similar tasks. However, this is not the most reliable
method to insure that efficient processes are being used to complete the maintenance tasks.
This fact was illustrated to us by Mr. Tom Denio, Superintendent, Engineering Production.
Mr. Denio related how Amtrak’s Tie Gang was laying 60-100 ties per day when he first
arrived to work at Amtrak. Following his review of the maintenance process, he modified the
sequencing of the work to emulate the process used on the Norfolk Southern RR (NS) and
was able to increase the production to 700 ties per day with the same size labor force. He
further stated that the NS can lay from 1,300 to 1,800 ties per day with the same level of
man-power, but utilizing employees with a different skill set and processes that are not
feasible on a passenger rail system.

       Further discussions with our Engineering Staff members revealed that Amtrak does
not routinely perform Industrial Engineering analyses to determine the optimal processes for
completing the various maintenance tasks. For that matter, Amtrak’s Engineering
Department has only one individual at the staff level who is qualified as an Industrial
Engineer. This is in contrast to the practices that were observed at the European railroads.
For example, Network Rail, the infrastructure maintenance company in England, has an
Engineering Data Center (EDC) that monitors the condition of the infrastructure assets and
then plans and reports upon the maintenance of the infrastructure assets. Network Rail
prepares detailed plans for the execution of its infrastructure work, including written
procedures, activities, manpower assignments, equipment assignments and the logic that
supports these plans.




                                             43
        In addition to NetWork Rail in England, DB in Germany also uses Industrial
Engineering techniques to identify the optimal processes to complete infrastructure
maintenance work. During our visit with DB, they described how their analytical work
identified and quantified the benefits of performing the inspection and maintenance of
switches using a team comprised of both track employees and communication & signaling
employees. Switches are complex machines that include components that are inspected and
                                     maintained by different engineering disciplines. The track
                                     structure (rails, ties, tie plates, spikes, ballast and sub-
                                     ballast) are the responsibility of the Track Department
                                     and the switch motors, switch heaters, electronic
                                     detection, control and signal equipment are the
                                     responsibility of the Communication & Signaling
                                     Department. The following picture illustrates the rails,
                                     ties, push rods, pneumatic switch motor, and an oil
                                     switch heater of a “vintage” switch that is close to the
                                     end of its useful service live.

         The safe and reliable operation of switches is dependent upon the ability of each
switch component to operate reliably and as designed. The most effective and efficient
method to inspect the components of the switch is to have the Track and C&S Departments
jointly inspect the switch. A joint inspection of the switch will minimize the amount of time
the switch is out of service for inspection and it will insure, not only that the components of
the switch will operate properly, but that all the components of the switch operate properly in
tandem.

       By expanding the use of Industrial Engineering techniques, Amtrak should be able to
both increase the productivity of its labor and improve the quality of infrastructure
maintenance.



Recommendation 2 –That the Chief Engineer expand the Industrial Engineering
expertise within Amtrak’s Engineering Department so that it can regularly
develop infrastructure maintenance programs that optimize the use of manpower,
materials, and technology.




                                               44
Finding No. 3 – Amtrak could benefit from a comprehensive set of metrics to
monitor infrastructure maintenance performance and to support effective
decision-making.

       Amtrak indirectly reports infrastructure maintenance efficiency at a high level by
producing both production reports and budget reports. As shown in the following table,
Amtrak Engineering reports on its actual weekly and year-to-date production against its goals
for each maintenance function. This information is also presented in Amtrak’s Monthly
Performance Report along with Engineering Actual and Budgeted Expenses. The




combination of the production and cost metrics provides a high-level measure comparing
Engineering Actual and Budgeted Efficiency. However, this does not provide a measure of
the efficiency of specific maintenance activities (e.g. # ties per labor hour), which is needed
to more effectively manage the resources of the engineering department. For example, this
information is required to determine if labor efficiency is increasing or decreasing, if past
capital investments have provided their anticipated benefits, and the magnitude of benefits
that should be anticipated from future investments or changes in maintenance practices.

        Our evaluation revealed that there are many benefits that can be derived from the
way US Class I and European railroads use unit production rates to plan for and report upon
their infrastructure maintenance gangs. Utilizing production unit rates for daily planning


                                               45
enables the Class I railroads to better coordinate manpower assignments, material
requirements, and track outage or curfew requirements. The reporting of daily production
rates by production gang helps to ensure that there is an organization-wide focus on
production levels and that actual production equals or exceeds planned production. The
production reports, which are shared on an organization-wide basis, generate an in-house
competition between the production gangs and by themselves help to increase the overall
productivity of the infrastructure maintenance programs.

       Our interview with the Chief Engineer of the Canadian National RR (CN) revealed that
they have both high level and detailed level measures of maintenance efficiency. CN
compares actual daily production to production goals by maintenance gang and the
engineering staff has the experience to know if the specific gang is working efficiently given
their actual production and the particular environment in which they are working. For
example, the actual production rate of a tie replacement gang would be different on straight
track than on an interlocking. CN also measures and reports upon the number of units
produced per 100 labor hours and the direct labor cost per unit produced. We also learned
that Deutsche Bahn (DB), Germany, uses standard production rates as part of its human
resources dimensioning tool to identify the human resources (i.e. number and type of
employee by craft) required to complete the company’s planned infrastructure maintenance,
renewal, and replacement programs.

        Network Rail, as illustrated in
the chart to the right, took a slightly
different approach of measuring labor
productivity by reporting upon the
“Time on Tools” of their maintenance
crews. The “Time on Tools” is the
same metric as Working Hours that is
shown in the Systems Dynamic Model
that is shown on page 34 of this
evaluation. NetWork Rail compares
the “Time on Tools” to the total
number of available hours as a
measure of how efficiently available
labor resources were employed. These measures are provided by maintenance territory (as
shown above) and also by maintenance discipline (e.g. track, C&S, etc.)


Recommendation 3 – That the Chief Engineer develop and use a comprehensive
set of metrics that monitor infrastructure maintenance performance to support
effective decision-making.




                                              46
Finding No. 4 - The combination of Railway Worker Protection rules and Civil
Noise Abatement Regulations significantly reduces the overall productivity of
production crews.

Discussion

        As previously discussed, Mr. Tom Denio, who was Amtrak’s Superintendent of
Engineering Production stated that work processes is a major factor that determines labor
productivity. The impact of disruptions to the work process became very apparent during a
site visit to the Harrisburg Line where Amtrak’s track laying system was working. The Track
Laying System (TLS) is a highly automated combination of men (approximately 100 both on
site and support) and machinery that renews the track structure (i.e. ballast, ties, and rail) in
a single pass over the renewed right of way. The TLS is designed to continuously (i.e.
without stopping) pick up old ballast, ties, and rail and lay down new ballast, ties and rail.
Although the TLS is designed to operate without stopping, the process was constantly
stopped for safety reasons while regularly scheduled trains passed the work site. During the
                                                                period of time that we watched
                                                                its operation, the TLS was
                                                                inactive for more than 50% of
                                                                the time waiting for trains to
                                                                approach and then pass the
                                                                work site. Unlike the Freight
                                                                Railroads, Amtrak’s TLS is not
                                                                as efficient as it could be
                                                                because it cannot curfew
                                                                regularly scheduled intercity
                                                                and commuter trains on the
                                                                right of way where the TLS
                                                                operates. In addition, local city
                                                                noise ordinances have
                                                                prevented Amtrak from
                                                                performing the work at night.
                                                                Consequently, the unit cost of
                                                                this infrastructure maintenance
process is significantly higher than theoretically possible because of the conditions under
which it operates.

       Our visits to the European railroads revealed that they face many of the same
challenges that Amtrak faces to safely and efficiently perform infrastructure maintenance
while minimizing any interruptions to scheduled train operations. The following processes
and technologies are being used by Amtrak’s European peer railroads to overcome these
challenges and improve the efficiency of their maintenance programs.




                                               47
•   Switzerland uses an automated system to warn infrastructure maintenance crews
    when a train was approaching their work site. The system provides reliable and
    sufficient warning so that the work crews can move to a safe location before the train
    arrives at the work site. Although the crews productivity is interrupted while the train
    approaches and passes the work site, the number of flagmen required at the work site
    is significantly reduced. The number of required flagmen can be quite large (e.g. nine
    at one time) for major programs such as the TLS when working on tracks with
    numerous curves.

•   For every mile of its main line tracks, ProRail has 5 ½ hours scheduled - twice a week
    during weekday nights - in the railroad’s timetable for track maintenance. The
    following chart illustrates the tracks available (tracks highlighted in green) to ProRail
    for maintenance work on this portion of the railroad on Night 1. A different set of
    tracks are available for maintenance on Night 2 of the schedule. It should be noted
    that other tracks are still available for regular train movements on both night
    schedules. By providing dependable, uninterrupted track access time for
    maintenance work in the railroad timetable, ProRail is able to achieve 4.5 to 5 hours of
    productive working time on each shift.

                                                                                                                                                                                                   ZDR2009220
            Dinsdag / Woensdag                                A-week                                                                                            E+F                                A: 00.00 – 05.30                B: 00.00 - 05.30                                                                              Tek: RZ-Rtd
            OHR-nacht                                                                                                                                                                              C: 01.20 – 05.30                D: 01.20 – 05.30
                                                                                                                                                                             A                     E: 00.20 – 00.50                F: 01.30 – 02.00
                 Versie: OHR 2009 Def                                                                                                                                                        C
                                                                                                                                                        B                                                                                                                                                                                                Ri. Ddr
                 verdeeld 20080822
                                                                                                                                                                                             D                                                                                                     ZDR2009164
                        Aanvraag in behandeling in de                             Krg
                                                                                                    Rb                Bgn                      Essen                                                                                                                                               00.05 – 05.35           Zlw                         Wld
                        gebruikersoverleggen                                                                                                                                                                                                                  Odb               Zvb
                                                                                                                                                                                                                             Etn
                      Aanvraag verdeeld via de Tafel van
                      Verdeling                                                                                                                                              Rsd                                                                      Tek: RZ-Rtd
                                                                      Gs
                                                                                                                                              ZDR2009182                                     Tek: RZ-Rtd Hsl                                                   Hsl                          Hsl
                                                                                                                                              00.15 – 05.45
                                                                                                                                                                                                            ZDR2009230
                                                        ZDR2009156                                                                                                                                          23.45 – 05.15                                 Nvbr
                                                                                                                                                                                                                                                Bdpb
                                                        00.30 – 06.00                                                                     Tbge



                                                                                                                                                              Tbwt     Tbr         Gz
                                                                                                                          Tb                                                                                       Bd                                                                                                                         Tek: NO
                                                  Mdb                                                                                                                ZDR2009104
           Vs                                                     Sloe                                   Tbi                                                         00.10 – 05.40
                                                                                        Ot                                         ZDR2009141
                                                                                                          ZDR2009235
                                                                                                                                   A: 00.10 – 05.40                          Ri. Gdm
                                                                                                          00.25 – 05.55
                                                                                                                                   B: 02.00 – 05.45                                                                                                                                                                                                     Ri. Nm
           Weeksoorten OHR 2009
           Start OHR 2009:                                                                                                     A                                              Hdl
                                                                                                                                                                                                                                                                                                         Bmr         Bgk          Ck
           Week 50: zon (A-week)                                                                                                                                                 Tek: RZ-Ut                                                                                                  Vlb                                              Mo
                                                                                                                                                                                                                                                         Ltm         Mlo
            A    B C D      A B C      D                                                                                                               A                                                                                                                             Vrij
            50   51 52 01   02 03 04   05
                                                                                                           Vga
                                                                                                                                                                                                   ZDR2009148
            06   07 08 09   10 11 12   13
            14   15 16 17   18 19 20   21                                                                                                                                                          00.15 – 05.45
                                                                                                                                                                                         Ri. Nm
            22   23 24 25   26 27 28   29
            30   31 32 33   34 35 36   37                                                                                                          B             Htda                                                    Tek: NO
                                                                                Btl
            38   39 40 41   42 43 44   45
            46   47 48 49   50
                                                                                                                                   Ht
                                                                                                                                                                                                                                                                                                                                                         Ri. Kn
                                        ZDR2009169                                                                                                                                                                                           Ect
                                        00.15 – 05.45
                                                                                                                                                                                                            Grvn
                                                                                                                                                                                                                                                                           Br
                                                                                                                                                                                                  Dn                         Hrt



                                                                                                                                                                                                                                                                                                                                                       Tg
                                                                                                                                                                                        Hm                                                                                                                           Vl
                                                                Bet



                                                                                                                                                                                                                                                                                Wt                      Hln
                                                                                                                                                                                                   Gp
                                                                                                                                                                                                                                                                                                                                                      Rv
                                                                                                                                                                                                                                     Ohze          Mz
                                                                                             Ehb                                                                                                                   Hze
                                                                           At                            PSV
                                                                                                                                                                                                                                                        Bdl
                                                                                                                 ZDR2009184
                                                                                                                                                                                                                                             ZDR2009541
                                                                                                                 00.10 – 05.40                                                                                                                                                                                                                        Sm
                                                                                                                                                                                                                                             00.15-05.45
                                                                                                                                           Ehv
                                                                                                                                                                                                   Bon




                                                                                                                                                                                                                                                              Mbt
                                                                                                                                               Lut                                                                       Srn
                                                                                                                                                                                 Std

                                                                                                                                                                                                                                                                                              Rm
                                                                                               Mt                                  ZDR2009193
                                                                                                                                   00.15 – 05.45                                                                                                                                                                                                      Duitsland
                                                                                                                                                                                  ZDR2009205
                                                                                                                                              Bk                                                                                                                                A                                                         Han
                                                                                                                                                                                  00.45 – 06.15
                                                                                                                                                                                                                                                                                                                    A+B
                                                                                                                                        Bde                                                                                                                                                                                                                ZLSM
                                                                                                                                                                                                                                                                                                                                  Egh   Cvm     Krd
                                                                                                                                                                     Glo Sbk Sn                        Nh
                                   Edn                                                                                                                                                                                  Hb                               C                                                    Lg   ZDR2009212
                                                 Mtr                                                                                                                                                                                                                   B    Hrl                                    A: 00.48 – 05.28
                                                                                                                                                                                                                                                   ZDR2009208                                                      B: kader voor KIO,
                        België                                                                                                                                                                                                                     A: 00.15 – 05.45                                                maximaal 26 keer: 00.14 – 00.48
                                                                                                                                          ZDR2009216 Mes         Sgl         Vk                    Sog Kmr         Vdl                             B: 01.40 – 05.00
                                                                                                                                          23.45 – 05.15                                 Zlsm                                                       C: 01.40 – 05.00




•   Volker Rail, which performs infrastructure maintenance for ProRail in the Netherlands,
    utilizes a system that allows its workers to safely work while trains pass on adjoining
    tracks. As shown in the following pictures, the workers perform their duties within an




                                                                                                                                                              48
      enclosure that is basically a shell of a rail car. This system significantly improves the
      productivity of these crews since their work is no longer interrupted by passing trains.




Recommendation 4 a – That the Chief Engineer investigate the feasibility of
implementing the European practices used to optimize the productivity of its
infrastructure maintenance crews.

Recommendation 4 b –That the Chief Engineer identify the civil noise and other
restrictions that are the greatest impediment to efficiency and develop the
operating and financial benefits that would justify their modification.

Recommendation 4 c – That the Vice President for Government Affairs &
Corporate Communications work with local governmental jurisdictions in an
attempt to modify the civil restrictions that the Chief Engineer identified as
hindering the efficiency of infrastructure maintenance.




                                              49
Finding No. 5 – Amtrak could benefit from the adoption of some of the long term
planning processes that are being used in Europe.

        Effective long term planning of infrastructure maintenance and renewal activities has a
major impact on asset performance and life cycle costs. A newly built or renewed asset has
an expected lifetime 6 in which it functions with a minimal effort of maintenance (economical
lifetime). Beyond this point, functionality can only be achieved with intensified maintenance
resulting in higher costs and usually loss of asset quality (technical lifetime) until even further
deterioration leads to loss of function. Ideally, an identified equilibrium of maintenance and
renewal costs leads to the lowest life cycle costs (LCC). Any variation leads to either higher
maintenance costs or waste of asset value due to early replacement.

        The relationship between the lifetime costs and performance of infrastructure assets is
illustrated in the following diagram that was prepared by ProRail. It should be noted that the
prerequisites to effectively managing the optimal replacement times for thousands of
infrastructure assets is a thorough understanding of the asset condition, the factors causing
asset degradation and the nature of this degradation. This can only be achieved by regular
and objective asset condition monitoring, which can be effectively delivered by automated
systems as previously mentioned, and by fact based analysis that has quantified the factors
causing asset degradation.




6
    Lifetime can be determined by physical age, level of usage, or measured condition.


                                                              50
        The majority of the European infrastructure managers that we visited use a long term
planning process to determine their maintenance and renewal programs. It should be noted
that the long term planning process is enabled by the multi-year funding commitments made
by each country for the infrastructure maintenance and renewal programs. The multi-year
funding programs, ranging from three to five years, enabled the European infrastructure
companies to develop programs for the cost effective and timely replacement of
infrastructure assets. Historically, Amtrak receives only a one year funding commitment for
its maintenance and renewal programs and frequently does not know what this level of
commitment is until well into the budget year. The impact of this funding situation on
Amtrak’s ability to optimize the efficiency of its capital programs is further described later in
this section.

        In addition to simply performing long term infrastructure planning as a stand alone
process, some of the European infrastructure maintainers have successfully merged their
long term planning process with the company’s strategic objectives, asset maintenance and
performance goals, information and reporting systems, and manpower and organization. As
illustrated in the following chart, ProRail described how they coordinate these planning and
management processes to attain their corporate objectives and optimize their infrastructure
maintenance and renewal programs.




                             ProRail links Strategic Objectives
                  with Infrastructure Maintenance and Renewal Planning


                                                                      Awareness of           Structures and
                           Transparency in
                             the relationship
                            between activities,
                                                   Awareness of the
                                                     interaction      the long-term
                                                                                           Systems for
                                                                                            effectively using
                                                                                                                Strategic
                                                     between
                              costs and
                              performance
                                                     performance by
                                                    .managers and
                                                                        effects of
                                                                      maintenance
                                                                                               the insights
                                                                                               referred to
                                                                                            In A, B, and C
                                                                                                                objectives
                                                                          (LCM).
                                                     operators
                         A                        B                   C                   D

   Maintenance          Life Cycle                 Quality                 Information            Management               Man &
   management          Management                 assurance                                       instruments           organisation
                                                     The chain                                                             ProRail has
            The                                      of primary               The data for            Instruments
       relationship                                                                                                       embedded
                         All decisions               processes                    asset                (including    professionalisation
     between costs,    on new building
      activities and                              including tasks,           management,            procedures) and       across the
                       alternatives and           responsibilities             financing              systems for      organisation by
     performance is      maintenance               and authorities           systems and           supporting asset developing knowledge
        known and       versus renewal
        applied. A                                and internal and            dashboards              management,   and experience, skills
                       are taken on the               external                 (kpis) are          financing system    and behavioural
     relationship is        basis of                interfaces is          available, reliable       and dashboard
    established with                                                                                                  aspects, based on
                         demonstrably              described and            and managed at         are implemented   desired standards &
    the performance    lowest LC costs                managed                 a sufficient
      of operators                                                                                                         values and
                                                                                  level                                    motivation.

    1                  2                           3                        4                         5                 6

                                                                      51
       Our review of the European infrastructure maintainers also identified the following
processes that were being used to help them plan for the optimal maintenance,
refurbishment and replacement of the railroad’s infrastructure assets. Some of these
processes are enabled by the funding mechanisms utilized by the particular European central
government and consequently Amtrak may not be able to adopt them without appropriate
changes being made to its capital and operating subsidy legislation.

Planning Horizon The planning horizon for the European infrastructure maintainers tended to
be longer than that for Amtrak. For example, ProRail used a 10 year planning horizon for its
major projects, which were described and reviewed at a high-level summary level and then
had shorter term plans that were described and reviewed at increasing levels of detail.
These plans eventually cascaded down to weekly plans that were very detailed, describing
work procedures, labor assignments, material and tool requirements, and track outages.
This process helped to insure that the long term infrastructure requirements were properly
planned for and that these plans were coordinated with mid-term and near term plans and
programs.

Asset Designs In line with their longer planning horizon, the European infrastructure
maintainers planned and designed their assets based upon their future transportation
requirements and not just upon their need to replace or upgrade existing assets. A prime
example of this is the new city line that is planned for Stockholm, Sweden. This new line will
supplement the existing rail line that serves Stockholm’s Central station and will include two
tracks, six kilometers of railway tunnels, three new stations, and a one kilometer flyover.
Another example of this approach is the new high-speed rail line being built between Vienna
and St. Polten, Austria. This rail line, which is being built as part of a long term project to
increase the rail passenger capacity between Western Europe and Eastern Europe, includes
an intermediate station stop that has no near-by population centers. The station stop has
been constructed with the concept that “build it and they will come.”

Multi-Year Funding Commitment All of the European infrastructure maintainers have some
form of multi-year funding commitment from their federal rail passenger agency. Both
Deutsche Bahn and OBB have a 5 year rolling capital budget commitment, NetWork Rail has
a 5 year capital commitment, and ProRail has a 4 year capital commitment. The multi-year
funding commitments enable the European infrastructure maintainers to both prepare long-
range infrastructure plans and to implement the actions (e.g. order long-lead materials,
negotiate cost effective multi-year contracts, hire and train qualified staff) required to
efficiently complete the related programs. It should be noted that some of the multi-year
funding commitments are made concurrent with commitments by the infrastructure
maintainer to make measurable improvements in the operating and/or financial performance
of the rail line.

Capital Funding Justification To provide their Federal Government a yardstick to measure the
benefits of capital investment in the railroads infrastructure, ProRail presents three funding
scenarios:


                                              52
          1. Base case – current funding level that results in decreased asset condition, a
             back log of required capital investment, and decreased network
             quality/performance.
          2. Current Performance Levels – funding level required to avoid further
             deterioration of asset condition.
          3. Improved Performance – funding level required to return infrastructure to a
             SOGR and improve the network quality/performance.

ProRail stated that this approach has helped them to justify the capital funding required to
improve the quality and performance of their network.

Life Cycle Costs Many of the European infrastructure maintainers took into consideration the
life cycle costs to make decisions regarding when to replace assets and how to prioritize their
capital projects. Even though the European infrastructure maintainers had consistent subsidy
levels, these subsidy levels were not adequate to support their unconstrained funding
requirements and they did have to allocate available funds to their highest priority projects.

Capital Funding Allocation Sweden utilizes the approach of allocating its capital funds taking
into consideration the combination of projects that optimizes the railroads financial and
operating performance. This approach goes beyond reviewing individual projects/programs
as stand alone proposals and takes into consideration network utilization, project criticality
and how each project impacts other projects and the bottom line performance of the
railroad. This approach appears to enhance Sweden’s ability to optimize the financial
benefits of its capital investments.

Operating versus Capital Budget To insure that the operating budget is directly linked to
capital investments, Deutsche Bahn of Germany first develops it capital budget utilizing the
Live Cycle Cost approach to optimize financial benefits and then develops the operating
budget that reflects the operating and financial benefits derived from the capital investments.
For example, if a section of rail line is totally renewed, then the reduced maintenance
requirement for this section of the rail line would be reflected in the operating budget and
the improved train performance would be reflected in the revenue budget.

Maintenance Prioritization SBB, Switzerland, has a formal, quantifiable process to prioritize
their infrastructure maintenance programs. SBB uses a risk assessment model that, utilizing
up-to-date condition assessments of the infrastructure assets, quantifies the risk (i.e. cost)
related to train derailments, train delays, and asset repairs. This risk assessment takes into
consideration type of asset, type of rail line, consequences of asset failure, and probability of
occurrence. If applicable at Amtrak, this process will help the company optimize the financial
and operating benefits of the money invested in infrastructure maintenance.

      Amtrak could realize the following benefits by adopting the “best practices” of the
European Railroads related to long term planning:




                                               53
  •   Insure that the appropriate infrastructure assets will be available to support the
      company’s strategic goals.
  •   Insure that the highest priority projects will receive the available capital funding.
  •   Improve the method for justifying the investment of federal funds into Amtrak’s
      infrastructure.
  •   Insure that the infrastructure maintenance program, which includes both the capital
      programs and operating programs, is optimized.


Recommendation 5 - That the Chief Engineer establish a long-term planning
process that optimizes the investment of capital and operating funds for
infrastructure maintenance by taking into consideration the timing of asset
renewals and related asset reliability and performance.




                                             54
Finding No. 6 - The lack of a multi-year capital funding program has negatively
impacted the efficiency of Amtrak’s infrastructure maintenance program.

Discussion

    The most common theme revealed to us by Amtrak’s Engineering staff is the negative
impact Amtrak’s current capital budgeting process has on labor productivity. Historically,
Amtrak Engineering does not know with certainty what its capital budget level will be until
after the fiscal year begins. Often, Engineering does not have a fixed capital budget until the
second quarter of the fiscal year when it is too late to make any efficient adjustments in
projects prioritizations or labor assignments. The absence of a predetermined capital budget,
more importantly a multi-year capital budget, has negatively impacted the efficiency of the
capital projects by:

   •   Inhibiting the Engineering Department from hiring and training the skilled labor force
       required to efficiently perform the capital projects since, otherwise, they would hire
       and train employees who would have to be laid off if the required capital funding is
       not obtained.
   •   Preventing the Engineering Department from ordering the long lead material items to
       have them on hand when required for the capital projects since, otherwise, they risk
       the likelihood of wasting any materials that had been ordered for projects that were
       subsequently canceled due to lack of capital funding.
   •   Depriving the Procurement Department the advantage of negotiating contracts for
       materials that have quantity discounts.
   •   Inhibiting the investment in the most productive technology and machinery to
       complete major capital projects. These types of major investments can not be
       justified unless it is known that there will be sufficient capital funds available to
       complete the projects that will utilize the new technology and equipment.
   •   Preventing labor from maintaining their skills when projects are prematurely
       terminated due to capital funding shortages. Mr. Denio pointed out that the
       maintenance gangs with the highest productivity on freight railroads stay together as
       a team from year to year because multi-year funding has been committed for the
       work.
   •   Preventing Engineering from obtaining the best contractor rates and skill sets. Better
       contracts can be negotiated when it is possible to offer longer-term agreements that
       have certain funding authority. Contractors are reluctant to invest in the hiring and
       training of employees if there is a lot of risk associated with the proposed agreement.

        In contrast to the situation Amtrak faces regarding capital funding uncertainties, every
European Railroad that we visited had some form of a multi-year capital funding source. The
majority of the railroads had five year capital funding commitments, with some having a
rolling five year commitment and others with five year commitment blocks. In either case,
these railroads were able to optimize the scheduling of their projects, develop productive
relationships with their contractors, and assemble the labor and materials for the timely and


                                               55
efficient completion of their projects. The majority of these railroads provided their funding
sources with some measures (i.e. On-Time Performance, average speed, average age of
assets, etc.) of the benefits to be derived from the capital investments. For example, ProRail
not only measures the relationship between their capital investments and their operating
performance, but they also program their asset maintenance based upon their asset age and
condition, which is related to asset investment.

Recommendation 6 a – That the Chief Engineer develop the operating and
financial benefits that would be derived from a consistent multi-year capital
funding program.

Recommendation 6 b - That the Vice President for Government Affairs &
Corporate Communications consult with the Congressional appropriation
committees in an attempt to obtain multi-year commitments of capital funds from
the Federal Government.




                                              56
LABOR

        Our evaluation of Amtrak’s infrastructure maintenance program also revealed that
opportunities exist to improve Amtrak’s labor production rate. 7 Skilled labor is a major driver
of productivity rates and consequently, the overall cost of performing infrastructure
maintenance. For example, a well trained, highly motivated labor force will have a higher
productivity rate than one that is not. Additionally, labor should be the primary focus for
improving the overall cost efficiency of infrastructure maintenance since direct labor costs
account for 80% of infrastructure core operating expenses and 50% of infrastructure capital
expenses. The combination of our interviews with Engineering Department staff, field
observations, and visits to the European railroads revealed numerous opportunities that exist
for improvements in this area. Listed below are three labor related findings and
recommendations on Amtrak’s opportunities to improve the efficiency and effectiveness of its
infrastructure maintenance program.




Finding No. 7 – Some of Amtrak’s labor compensation policies are not competitive
with other employers in certain areas of the country and, therefore, they hamper
the Engineering Department’s ability to attract and retain a skilled work force.

Discussion

        A theme that repeated itself during our interviews with the Engineering staff is
Amtrak’s difficulty in attracting and retaining employees in certain crafts and job markets.
Although the recent signing of new labor agreements has ameliorated some of the related
problems, it has not solved them all. The attraction and retention issue is a pressing one for
Amtrak because a large portion of its labor force is approaching their retirement age and
there will soon be a critical exodus of these individuals from the labor force. In addition to
this factor, certain labor crafts are being hired away from Amtrak by Commuter Railroads or
Commercial Industries that are able to offer better wage and/or benefit packages. Amtrak’s
Deputy Chief Engineer– Electric Traction, stated that he has had a very difficult time keeping
a sufficient number of qualified electricians in his work force since, as soon as he hires and
trains them, they leave to work for a Commuter Agency that pays better.

       The issue of attracting and retaining qualified employees was a major topic that was
addressed in the OIG Evaluation of Human Capital Management (E-09-03) of all Amtrak
employees. On page 22 of this report, it was concluded that “the current total compensation
system still does not appear to address all of Amtrak’s needs in attracting, motivating and
retaining Amtrak’s agreement covered and non-agreement covered employees.” The report
also stated, to address this labor issue, Amtrak needs to develop an overall compensation
philosophy and strategy that will be incorporated into a labor contract negotiating strategy.

7
    Reference flow chart on page 34 of this report.


                                                      57
The Engineering Department labor issues are an important part of Amtrak’s overall labor
issues and should be included in the development of the overall compensation strategy that
will help to solve the problems related to attracting and retaining qualified employees.

Recommendation 7 a – In support of the actions recommended to develop a
comprehensive Amtrak compensation strategy (reference page 22 of the OIG
Report E-09-03), that the Chief Engineer identify the critical near-term and
projected staffing shortfalls that need to be addressed by the comprehensive
compensation strategy.

Recommendation 7 b - That the Vice President for Human Resources & Diversity
Initiatives develop a comprehensive compensation strategy that will help attract
and retain the skilled labor required by the Engineering Department to efficiently
and effectively complete its infrastructure maintenance programs.




                                            58
Finding No. 8 – Certain FRA regulations that mandate type and frequency of
infrastructure inspection may be excessive and negatively impact the efficiency of
Amtrak’s infrastructure maintenance programs.

Discussion

        Our interviews with the Deputy Chief-Engineers of Track and C & S revealed that there
is a significant difference between the inspection procedures (i.e. frequency of visual
inspections) used by Amtrak and that used by the majority of the European Railroads that
had been visited during this evaluation. Amtrak’s inspection procedures are those that have
been mandated by the Federal Railroad Administration (FRA) while those of the European
Railroads are primarily those that have been established by the individual railroads to insure
that the infrastructure is safe, reliable, and fully functional. The European Railroads have
taken advantage of the latest technology to improve both the efficiency and effectiveness of
their infrastructure inspections. Our review of the European Railroad infrastructure
maintenance practices revealed their use of the following procedures/technologies that have
helped them to improve the way they complete their infrastructure inspections.

Track Inspection Frequencies With the exception of NetWork Rail, European infrastructure
maintainers perform visual inspections of their track systems much less frequently than
Amtrak. For example, some of these infrastructure maintainers visually inspect their tracks
every 3 months when Amtrak would be inspecting the same classification of track twice a
week. It should be noted that NetWork Rail considers their visual track inspection program
(i.e. once per week) to be more aggressive than necessary, but the frequency and scope of
the inspections are dictated by their federal safety regulator. ProRail determines its
inspection frequencies using a grading system (1 to 8) taking into consideration asset
condition, type of rail line, and asset utilization level. The European infrastructure
maintainers have also utilized a combination of modern asset inspection technology (e.g.
pattern recognition, track inspection trains, remote asset monitoring/diagnostics systems
such as the POSS switch monitoring system in the Netherlands) and a robust asset
management system to measure, record, and assess the condition of their infrastructure
assets. They have been able to use this combination of modern technology and a robust
asset management system to optimize their track inspection/maintenance programs, while at
the same time insuring that their safety and ride quality standards are properly maintained.

Pattern Recognition

       Pattern recognition is the use of an automated visual inspection system that records
the condition of the track system and identifies any structural defects. This concept is well
known at Amtrak since its own engineers applied for a patent in August 1996 for an
Automated Track Inspection Vehicle and Method that uses this technology. It is also a
technology that is used by some of the European Peer RRs to inspect their track system and
provide a “real time” record of its condition. This information is used for decisions on slow
orders and track maintenance programs, both near term and long range. Both Switzerland


                                              59
and the United Kingdom have versions of the pattern recognition systems included as part of
the equipment used to inspect their track system. The Swiss have included the pattern
recognition system in the self-propelled track inspection vehicle shown in the following
picture that was taken while the inspection vehicle was in their maintenance shop. It should
be pointed out that, in addition to the pattern recognition data, this vehicle also collects a full
array of track and catenary related data, such as, track alignment, cross level, gage, super-
elevation, twist, rail profile, and contact wire position and wear.




                                                     Picture of self-propelled Swiss track
                                                     inspection vehicle that includes pattern
                                                     recognition system, in addition to a full
                                                     array of track and catenary related
                                                     inspection technology.




Unattended Geometry Measuring Systems

        The overall infrastructure maintenance philosophy of NetWork Rail, the infrastructure
maintenance company for British Rail, has shifted from “find and fix” philosophy to “predict
and prevent” philosophy. To be able to predict when asset failures will occur, NetWork Rail
has developed a comprehensive set of tools to measure and report upon the condition of
their infrastructure assets. One of the tools used to measure asset condition is the
unattended track geometry measuring systems installed on revenue trains. These
unattended geometry measuring systems complement, not replace, the other NetWork Rail
track measuring vehicles and provide a vast array of up-to-date information on asset
condition at a relatively low cost. This data is then used by NetWork Rail to quantify the
causal factors of asset degradation and improve their ability to predict failures and optimize
their operating and capital maintenance programs. The “predict and prevent” maintenance
philosophy is directed towards providing a safer, more reliable, and more cost effective
railroad infrastructure.

Video Recording of Turnouts

       Similar to NetWork Rail, ProRail (infrastructure maintenance company in the
Netherlands) uses modern inspection technology to help them monitor the condition of their
railroad and plan for the efficient maintenance of their infrastructure assets. ProRail has the


                                                60
same requirement to have up-to-date and accurate data on the condition of their
infrastructure assets. Since the Netherlands has one of the busiest rail systems in the world,
ProRail has a challenge acquiring the data they require without impacting the performance of
train operations or risking the safety of its front line employees. ProRail has therefore
successfully employed the use of video recorders to monitor and report upon the condition of
their turnouts (i.e. switches on main line tracks). This technology has enabled ProRail to
obtain the information they require without having to take the tracks out of service for
inspection or place their employees on the track and in harms way.


Remote Monitoring/Diagnostics

       Remote monitoring of asset conditions, which is a technology that is actively used in
the US trucking industry, has been applied on many European railroads to provide real-time
assessments of their infrastructure condition. The benefits of this technology include
improved timeliness and quality of data and reduced operating expenses. This technology
enables the condition of the assets to be continuously monitored and diagnosed without
requiring maintenance crews being sent to remote locations to complete similar tasks. One
example of this technology is the POSS system used in the Netherlands to monitor the
condition of turnouts. The POSS system measures and records the current used to drive the
switch motors in the turnout. High current readings are an indication that the switch is not
operating properly and requires a physical inspection and possible repair/maintenance.

Recommendation 8 a – That the Chief Engineer identify the alternative
surveillance and inspections technologies that Amtrak can use to more efficiently
complete the current asset inspection procedures.

Recommendation 8 b – That the Chief Engineer identify the FRA regulations that
are the greatest impediment to efficiency, develop the operating and financial
benefits that would justify their modification, and then work with FRA
administrators in an attempt to update FRA regulations so they align with current
inspection technology and information systems used throughout Europe.




                                              61
Finding No. 9 - Amtrak’s current labor agreements hamper management’s ability
to optimize the efficiency of its labor force.

Discussion

        During our review, we learned that other Class I railroads in the United States,
contrary to Amtrak, require their union employees to bid on the highest class of job they are
qualified to perform. Amtrak allows its union employees to bid on the jobs they want,
irrespective of whether or not it represents the highest class of job they are qualified to
perform. This situation has the potential to cause work inefficiencies since less qualified
individuals may end up performing critical tasks and the potential benefits from the
investment in the training of the more qualified individual are not realized. The efficiency of
Amtrak’s infrastructure maintenance programs would increase by insuring that the most
qualified individuals perform the critical maintenance functions.


Recommendation 9 a -That the Chief Engineer identify the labor agreement
provisions that are the greatest impediments to efficiency and then develop the
operating and financial data to justify modifying these agreements.

Recommendation 9 b – That the Vice President for Labor Relations attempt to
negotiate modifications to current labor agreements that support the assignment
of employees to their highest qualified job category.




                                              62
TECHNOLOGY

       As illustrated in the flow chart on page 35, equipment technology is the third major
Amtrak-controlled production driver that impacts the production rate of labor forces. The
direct causal relationship between technology and labor productivity has been well known
since the days of the Industrial Revolution and has been the driving force behind many of the
major industries reinventing themselves. A prime example of the use of modern technology
to improve both productivity and product quality is the almost exclusive use of robots in the
auto industry to perform repetitive manual tasks such as welding and painting.

          Our review of the practices used by the European infrastructure maintainers
revealed that they have effectively incorporated the use of modern technology to help their
labor forces work productively and to provide a high quality end product.


Finding No. 10 - Amtrak may be able to benefit by using some or all of the
following technologies that are currently being used in Europe.


Portable Track Geometry Gage

       During our visit to Austria, the infrastructure maintenance company for OBB identified
a portable system they use to measure and record data on track geometry. This system is
                                                 far superior to Amtrak’s current system since it
                                                 is more efficient to use and it provides
                                                 enhanced and more reliable information. As
                                                 illustrated in the picture to the left, the
                                                 traditional track gage tool is a manual tool that
                                                 measures only the distance between the track
                                                 (i.e. track gage). The traditional process then
                                                 requires the track gage and its mile post
                                                 location be recorded manually at the work site
                                                 and then subsequently manually input into the
                                                 infrastructure data base at the railroad’s data
                                                 center. The OBB portable track geometry gage
                                                 is a digital system that automatically measures
and records track gage, rail cross level, and the GPS coordinates. The data, which is digitally
transferred to the computer infrastructure data base at the end of an inspection shift, can
then be used to calculate other track parameters, such as track spiral, and to plan track
maintenance and renewal programs.




                                                63
Flash Butt Welding

        Flash butt welding is a technique used by railroads for joining segments of metal rail,
typically performed in continuous rail territory where there are no rail joints. As illustrated in
                      the following diagram, flash butt welding of rail occurs when the
                      segments of rail are aligned with each other and electronically charged,
                      producing an electric art that melts and welds the ends of the rail
                      segments, yielding an exceptionally strong and smooth joint. The flash
                      butt welding process utilizes a relatively low electric voltage, a high
                      electric current, and high pressure applied between the rail segments.
                      Flash butt welding is the preferred method of welding rail in the “field”
                      (i.e. along the right-of-way). The alternative method is thermite
                      welding, which is a manual process requiring a chemical reaction in a
                      field formed crucible to produce molten iron. Thermite welds of rail
                      segments are considered to be less reliable and more prone to fracture
                      or break.

       Although Amtrak currently uses a flash butt
welding process, an improved system was observed
during the visit to the European railroads. The flash
butt welding system, which is used by Sersa in
Switzerland and shown in the picture to the right, is a
portable system that allows access to field locations
and is computer controlled, providing improved
alignment of rail sections and higher quality welds. The
new system will decrease the amount of time required
to complete each weld while improving weld quality,
which will increase train ride quality and decrease rail wear.


Hollow Switch Ties

       As shown in the following picture, Amtrak’s switch machines are designed with solid
                                                  switch ties that require the switch tie rods
                                                  to be located between the switch ties. This
                                                  system exposes the tie rods to potential
                                                  damage from moving equipment and also
                                                  prevents the use of high speed mechanized
                                                  tamping machines to level and align the
                                                  switches.
              Tie Rods
                                  Switch Tie



                                                64
In contrast to the solid switch ties used by Amtrak, Austria uses a hollow switch tie in its
                                    switch machines. The hollow switch ties are used to house
                                    the tie rods and thereby protect them from potential
                                    damage from moving equipment and it also allows the use
                                    of high speed tamping machines.

          Switch Ties




Safety Clearance Handrail

       One of Amtrak’s primary goals is the safety of its personnel and customers and
                                protecting them from hazards related to the movement of
                                trains. As shown in the picture to the left, the Netherlands’
                                infrastructure maintenance company uses a safety clearance
                                handrail to physically separate a worksite from an active
                                station track. The hand rail attaches to the track structure
                                and clearly defines the safe working zone for the
                                infrastructure workers. In this particular situation, a safety
                                fence is used to define the work area in addition to the
                                safety handrail.


Train Approaching Warning Device

        The train approaching warning device provides both a visual and an audible alarm at
least 20 seconds before an approaching train arrives at the location along the right of way
that is being protected. The train approaching warning device is used in Europe to help
protect infrastructure maintenance employees who work on the right of way. The purpose of
these devices is to reduce the risks related to working in the vicinity of live tracks and to help
reduce the labor hours that otherwise would be required to provide flagging of the railroad.
Based upon concepts seen in Europe, Amtrak plans to install the warning devices at its
interlockings and moveable bridges since these locations have the highest safety related risk
factor.

Dual Wire Catenary Change Out System

        As described on page 15 of this evaluation, a significant portion (i.e. 52%) of Amtrak’s
electric traction system is not in a state of good repair and consequently requires
rehabilitation or total replacement. One of the most critical components of the catenary


                                               65
system is the contact wire that transmits the electric traction power to the train’s locomotives
via the pantographs fixed to the roof of each locomotive. Of equal importance to the
catenary system is the cable that properly aligns and supports the contact wire.

       As illustrated in the following picture, a dual wire centenary change out system is
                                    available that installs both the contact wire and its
                                    supporting auxiliary wire in a single working pass at the
                                    proper final operating tension and correct stagger.
                                    Compared to the use of conventional technology, this
                                    system installs these wires with a significant reduction in
                                    track possession time and, just as importantly, a reduction
                                    in man hours and capital expense. It is anticipated that the
                                    new system will support the replacement of 1 mile of
                                    contact and auxiliary wire during a single shift compared to
the current process that requires 15 shifts to complete. This system is currently being used
by OBB in Austria for the renewal of its overhead electric catenary wires.


Copper Magnesium Catenary Contact Wire

       Amtrak uses a copper cadmium contact wire in its catenary system south of New York
City and a copper silver contact wire north of New Haven. It has been reported that the
copper magnesium contact wire is the preferred type of contact wire for high-speed railroads
because it offers high tensile strength, good creep resistance, and high conductivity, which is
expected to provide higher current levels for given levels of voltage along the catenary. The
new contact wire purportedly has a longer useful service life and consequently is friendlier to
the environment. Amtrak plans to install a section of the copper magnesium contact wire
into the NEC catenary system and then evaluate its performance.

Track Measurement Vehicle

            The European railroads have numerous types of track inspection and measurement
vehicles that they use to measure and report upon the condition of their railroad’s
 Video inspection:                        Position:                                           infrastructure. As illustrated in the
                                                                                              following picture, NetWork Rail
 Track, surroundings, signal visibility   D-GPS, automatic adjustment to objects
 vegetation check, contact wire           (Indusi/ATB, magnets, masts), manual setting

                                                                                              utilizes a self-propelled train (New
                                                                           Rail cross         Measurement Train) to complete the
                                                                           section:
                                                                           Profile, railtype, inspections of their railroad’s
                                                                           rail height &
                                                                           head width,        infrastructure. NetWork Rail did not
  Overhead line construction:
                                                                           wear, gauge
                                                                                              have all of the inspections systems on
  Contact wire position: height & stagger
  Mast position
                                                                                              the New Measurement Train (NMT)
                                                                                              fully functional, but they did have
                                             Track geometry:                                  plans to have them operating as
   Rail surface:
   Rail crack, rail joint, burns, wear,
   deformation, corrugation, missing
                                             Gauge, level, alignment,
                                             superelevation, twist                            designed in the near future. The
   fasteners




                                                                66
NMT also provides a full array of track and catenary related data that is critical to making
informed management decisions on track speeds and required maintenance programs. The
benefits provided by these inspection vehicles include:
      • Efficient inspection of railroad infrastructure – does not rely on the costly use of
         staff to perform frequent visual inspections.
      • Objective results – conditions are measured and compared to acceptable standards.
      • Timely information – exceptions to accepted minimal criteria are known immediately
         so that actions can be taken.
      • Comprehensive record – a comprehensive record is maintained of the infrastructure
         that can be used to measure system degradation and establish the optimal
         maintenance and renewal programs.

Hydraulic Switch Machines

      In contrast to the current switch machines used by Amtrak (see picture on Page 44),
the Austrians use a hydraulic switch machine that lies within the track profile. The following
                           picture illustrates a pre-fabricated crossover that incorporates a
                           hydraulic switch machine to move the switch points. This
                           crossover was to be cut into a section of the railroad that was
                           undergoing a complete renovation from sub-ballast to track
                           structure. Compared to the conventional Amtrak switch machine,
                           it can be seen that this type of switch eliminates many of the
                           moving parts that are maintenance intensive and a potential
                           cause of switch operating failures. If applicable to Amtrak’s
                           operating environment, the hydraulic switches may be able to
                           improve the reliability of these critical track systems, while
                           reducing their maintenance requirements and operating
                           expenses.


Switch Point Rollers

       Switch point rollers are used to reduce the amount of friction between the switch
points and the plates that support the rail. The switch point roller system shown in the
following picture is a SAFEROLL system. This switch point roller system facilitates the
movement of the switch rail by lifting the
switchblade from the tie plates during the
setting movement and enabling it to move
without creating sliding friction on the rollers.
The advantages of this system are:
    • Rolling friction instead of higher sliding
       friction
    • Lifting of the switchblade during the
       movement


                                              67
   •   Setting of movement is performed uniformly and without power peaks
   •   Requires no lubrication of the slide-chair plates
   •   Rollers have maintenance free bearings.



Hand Held Switch Point Gage

       The infrastructure maintenance department for the Austrian national railroad (OBB)
has a portable hand held device that quickly and
accurately measures the track gage at switch points.
This system, which is shown in the picture to the left,
appears to be more efficient and accurate to use than
the one that Amtrak currently uses.




Fixed Point Track Alignment

       Both Switzerland and Austria use a fixed point reference system to insure that their
railroad is maintained within very close tolerances to its original design parameters. This is
                             accomplished by using the catenary poles along the right of way
                             as the fixed points for aligning the railroad. The following picture
                             illustrates how the catenary poles on Austria’s Vienna to St.
                             Polten high speed rail line include a point to attach a mirror that
                             will be used to reflect laser beams during the track alignment
                             process. The track tamping machines that align the tracks use a
                             combination of video cameras, lasers, GPS systems, and
                             computers to quickly and accurately return the railroad to its
                             original design. This results in a railroad that has the proper
track geometry and has each of its infrastructure elements (e.g. individual main line tracks)
in the proper location in reference to each other. It is anticipated that the use of this system
would improve the ride quality of Amtrak trains on the NEC, especially when they pass over
crossovers between the main line tracks.


Under Tie (Sleeper) Pads

       Austria is installing elastomeric pads under their concrete ties (sleepers) to improve
the ride quality of their railroad and/or reduce their infrastructure maintenance costs. The
objective of this program is to eliminate the hard contact area that exists between the


                                               68
concrete tie and the stone ballast. The hard contact area increases the pressure points
                                                            between the concrete tie and the
                                                            stone ballast, which accelerates
                                                            the failure of the ballast and
                                                            concrete ties. OBB, Austria’s
                                                            infrastructure maintenance
                                                            company, made an informed
                                                            management decision to install
                                                            the elastomeric pads based upon
                                                            tests (see graphs on left) that
                                                            demonstrate the ability of the
                                                            pads to improve track alignment
                                                            and reduce the deterioration of
                                                            track geometry over time.


Slab Track

        Slab track is a relatively new technology that uses a ballast-less track bed to support
the tie and rail system. Although there are numerous types of slab track, they all use a
concrete base to support the railroad’s tie and rail system. A good comparison of slab track
versus ballasted track can been seen in the adjacent
picture where the slab track for the Frankfurt to Cologne
ICE train runs parallel to the ballasted track used for
regional train service. While slab tracks are used in the
United States primarily in tunnels, they have become
common place in Europe on their high-speed passenger
rail systems.

        Like most new technologies, there are both
advantages and disadvantages to the slab track system.
The primary disadvantages of the system are its higher initial cost, uncertain useful service
life and unknown replacement cost. The advantages are many:

      •   Allow higher train operating speeds
      •   The higher values for cant and cant deficiency allows small horizontal radii, which
          may significantly reduce construction costs in hilly territory
      •   Requires no track maintenance for tamping and aligning
      •   Reduces rail wear
      •   Provides constant elasticity
      •   Provides excellent ride comfort at high speed
      •   Reduces vibration and secondary airborne noises
      •   Improved load distribution reduces dynamic load of subsoil
      •   No flying or swirling ballast at high train speeds.


                                              69
Work Area Fencing

       To help reduce the risks associated with working in the vicinity of live tracks, many of
the European infrastructure maintainers erected barriers that clearly defined the safe work
zone for its employees. In Switzerland, the safe work zone was defined by red and white
safety tape and actual fences were used to define the safe work zone at projects is Austria.

Turnout Design

        Amtrak’s NEC is one of the busiest, if not the busiest, rail networks in the United
States and is used by a wide range of train services that vary from the high-speed Acela train
service, to Commuter train services, and even to freight train service. To be able to
accommodate the various types of train services that have dissimilar operating characteristics
(i.e. train speed, train length, station stops, etc.), the NEC uses a high density of turnouts.
For example, the density of turnouts along the NEC Spine exceeds that of over 50% of the
15 European Railroads included in the Benchmarking Study.

       European turnouts are designed for higher train speeds than the maximum allowable
speeds through Amtrak’s NEC turnouts. The higher permissible speeds results from the
turnouts being built with higher cant, smaller turn radii, and higher tolerance standards. As
witnessed by the Amtrak benchmarking team, the European railroads have been able to
operate their trains through these turnouts at higher speeds and maintain a very high ride
quality on the train. The design of turnouts is a very critical factor in the NEC since it
impacts train on-time-performance, train schedules, and customer satisfaction. It is
anticipated that Amtrak would experience significant operating and financial benefits if it is
feasible to utilize some of these turnout design concepts on the NEC.

Softer Rail Pads

       Amtrak and other rail infrastructure owners/maintainers place an elastomeric pad
between the rail and the concrete sleeper, as illustrated in the following diagram, for
improved train ride quality and infrastructure performance. The European Railroads have
been using a softer rail pad than the one
that Amtrak has been using and may
provide superior performance. The rail
pads will:                                                                  Rail pad
       • Reduce train noise and vibration
           to improve ride quality
       • Provide resilience and impact
           attenuation to increase concrete
           tie (sleeper) service life
       • Reduce the possibility of rail foot corrosion and concrete tie erosion
       • Provide resistance to rail creep
       • Provide electrical insulation.


                                               70
Subgrade Replacement Machine

        The long term performance and reliability of a track structure is only as good as the
subgrade that supports the primary track structure, which includes the sub-ballast, ballast,
ties, rail, and rail fastening system. The purpose of the
subgrade is to provide sufficient support to the track
structure so that the deflections from train operations are
minimized, preventing any significant horizontal or vertical
displacements from being transmitted to the track
structure. As illustrated in the following diagram, the
subgrade includes both the natural ground and the placed
soil that lie directly beneath the track structure’s sub-
ballast. If a track structure has a poor sub-grade, then it
is possible that the upper components of the track structure will not be properly supported,
that the ballast could migrate into the sub-grade, or that fine particles in the sub-grade could
migrate into the ballast causing mud spots. In any case, these conditions could impact the
stability of the track and its ability to hold horizontal and lateral alignment.

       The infrastructure maintenance company for OBB, Austria’s national rail system, uses
a system (similar to that of Amtrak’s track laying system) to replace the sub-grade of its track
structure on a production line basis. The following picture illustrates one portion of the
                                           system when the geotechnical fabric is being laid
                                           down and the sub-grade stone is spread over the
                                           fabric. This function is being performed after the
                                           system has lifted the rails and ties and removed
                                           both the ballast and sub-grade, but before the sub-
                                           grade is tamped, the ties and rail put in place and
                                           ballast added to the track structure. When this
                                           operation is completed, the track structure has a
                                           completely renewed sub-grade and the track
                                           structure is ready for tamping to insure the rails
                                           have been properly aligned. Amtrak has never
                                           attempted to renew the sub-grade of its track
structure on such a grand scale and has only completed spot renewals when the conditions
warranted the investment of time and money.

        There are major one-time costs associated with the total replacement of the sub-
grade of a railroad’s track structure. There are also major operating and financial benefits
that would be derived from this type of program. The operating benefits include improved
ride quality and train reliability and the financial benefits would include improved
ridership/revenue and reduced operating expenses resulting from the reduced amount of
effort required to maintain the track’s design geometry. Although the benefits may be
significant, Amtrak should attempt to quantify both the costs and benefits of this type of
program before it invests in the required equipment, manpower, and materials.


                                               71
Bridge Painting

       Amtrak owns and maintains 1,327 undergrade bridges that are constructed from steel,
concrete, or masonary and have build dates ranging from about 1890 to the present. In
addition, Amtrak owns and maintains thirteen moveable bridges that are constructed
primarily from steel and have build dates ranging from 1901 to 1984. Similar to Amtrak, the
European Railroads have railway bridges built from a variety of materials over a wide span of
time. As an example, the number of railroad owned and maintained bridges in Switzerland
                                                                     are plotted by
                                                                     construction type and
                                                                     age category in the
                                                                     following bar graph. This
                                                                     graph illustrates that the
                                                                     oldest bridges are
                                                                     masonry bridges and that
                                                                     the primary type of
                                                                     bridge construction is
                                                                     concrete. The European
                                                                     railway maintainers
                                                                     stated that, in spite of
                                                                     their relatively lower age
                                                                     and population size, steel
bridges were their greatest maintenance challenge because of corrosion and rust, which is
intensified wherever the steel bridges are located near bodies of salt water.

        Our visits to the European Railroads revealed that there was not a common, unified
approach to maintaining steel railroad bridges. Some of the European railroad infrastructure
maintenance companies do not have a scheduled maintenance program to paint their steel
bridges to protect them from corrosion. Most of these infrastructure maintainers understood
the importance of painting their steel bridges, but due to budget constraints, chose to defer
this type of maintenance.

       In contrast, the Swiss infrastructure maintainer had a defined maintenance program to
paint their steel bridges. The strategy of the Swiss program was to use state-of-the-art
corrosion protection technology to produce an economical steel bridge maintenance program.
To implement this strategy, the Swiss analyzed the available corrosion protection
technologies and maintenance schedules to provide:

   •   Durable and robust bridges
   •   Low operating maintenance expenses
   •   Minimal life cycle costs (LCC)

The analysis took into consideration asset service life, renewal expenses (i.e. labor cost,
material cost, set-up cost), consequences to train operations, and environmental impact.


                                              72
Bridge Reinforcement

         As previously stated, Amtrak owns and maintains 1,327 undergrade railroad bridges,
which include concrete bridges that cumulatively span almost four linear miles. When
exposed to sufficiently aggressive environmental conditions, the structural concrete in these
bridges will eventually deteriorate and lose strength. Aggressive environmental conditions
for bridges involve cycles of freezing and thawing, and cycles of wetting and drying that is
common to the northeast portion of the US. Banverket, the infrastructure maintainer in
Sweden, utilizes carbon fiber technology to reinforce its bridges because of the high strength
to weight ratio of carbon fiber. This technology may provide significant operating and
financial benefits since reinforcing concrete bridges with carbon fiber may extend the service
life of these bridges and reduce their overall life cycle costs.

 Concrete Catenary Structures

       OBB, the national passenger railway system in Austria, utilized a comprehensive 15
year process to plan and initiate the construction of their high speed rail line between Vienna
and St. Polten, Austria. This process analyzed traffic, technology and alignment alternatives
trying to optimize the balance between environmental, operating, and financial factors. One
of the many design concepts utilized in the Vienna to St. Polten rail line is the concrete
catenary pole. The picture to the right shows a partially
completed portion of the rail line that has an asphalt sub-
grade, concrete catenary poles, and cable box raceway. OBB
has chosen to use concrete catenary poles because, in Austria,
they cost less than steel poles, they require less maintenance,
and they are more aesthetically appealing. Amtrak should
investigate if the same factors would apply for the use of
concrete catenary poles in newly electrified rail lines in the
United States.


Prefabricated Temporary Bridges During major bridge rehabilitation and replacement
projects, OBB diverts the rail traffic to off-the shelf type prefabricated bridges that have been
temporarily put in place
during the construction
projects. The use of the
temporary railway bridge
(see adjacent picture)
enables the construction
project to proceed efficiently
while minimizing the impact
to train operations over this
portion of the rail line.
When required, Amtrak


                                               73
currently designs and then has built temporary bridges for each specific bridge project.
There may be some time related and cost related benefits to using an off-the-shelf type
prefabricated bridge compared to a design-build type prefab bridge.

Advanced Radio Systems The European infrastructure operators are in the process of
installing an advanced radio system (GSM-R) on their rail lines as one part of a suite of
programs supporting the UIC goal to operate trains seamlessly between European countries
and across the continent. This system is being installed in combination with the European
Rail Traffic Management System (ERTMS) and the European Train Control System (ETCS),
which are also required to support the UIC inter-operability goal. In addition to improving
the reliability of the train radio system, GSM-R will also:

        •   Allow the train controller to not only speak directly with the train engineer, but
            also to the passengers on the train via the train intercom.
        •   Allow the train engineer to contact the train controller with one push of a button.
        •   Allow the train controller to call multiple trains at one time.
        •   Allow the train controller to make a railway wide emergency call using the red
            emergency button.

Amtrak may be able to benefit from the increased reliability and functionality of these
advanced radio systems.

Safety Inspection Platform As described on page iii of this evaluation’s introduction, the
Netherlands was identified as the country to visit regarding the best practices related to
bridge maintenance programs because of their high density of both fixed and moveable
bridges. Their railroad system has a total of
4,880 bridges, overpasses, and tunnels, which
amounts to almost 3 of these major
infrastructure assets per network mile. To
improve the safety and efficiency of the bridge
inspections, the railroad infrastructure
maintainer (ProRail) uses permanently installed
platforms (see picture to right of moveable
platform beneath the lift bridge at Dordrecht) to
inspect the support structure of bridges. The
inspection platform enables the ProRail
employees to safely inspect the supporting
structure of this lift bridge without impacting
the rail operations of this key rail line.


Output Based Contracts     Most of the European infrastructure maintainers rely heavily on
the use of outside contractors (i.e. non-railroad employees) to complete their major capital
improvement projects and consequently have extensive experience contracting out this work.


                                              74
Banverket, Sweden, has determined that the use of “output based” contracts offers the
greatest opportunities for them to obtain the infrastructure improvements they have paid for.
Coincidentally, a 2007 survey conducted in the United States by the International Association
for Contract and Commercial Management revealed that over 50% of the respondents were
using output based contracts. The unique aspect of this type of contract is that it focuses on
what the deliverables are rather than how they should be delivered, and consequently allows
the contractor to utilize the most cost effective technologies and processes to deliver the
product/services. ProRail has also begun to use performance (i.e. output) based contracts
and has gained valuable experience in how best to define performance indices and to
incorporate performance incentives/penalties.

       For a railroad infrastructure company, examples of deliverables from an output based
contract are track speed, track geometry, ride quality, and system reliability. To help insure
that their contracts are successful, Banverket specifies standardized components to be used
in the maintenance projects, establishes meaningful and measurable performance indices,
and works very closely with the contractors to eliminate any avoidable barriers to their
success. Banverket wants these contracts to be a win-win relationship and is willing to
accept some near term risk to develop contracts that will provide the best infrastructure and
the best price.


Recommendation 10 - That the Chief Engineer prepare and implement a plan to
investigate the feasibility and benefits that would be derived by utilizing each of
the technologies currently being employed by European railroads as discussed in
this section and summarized in Appendix I.




                                              75
SUMMARY - RECOMMENDATIONS

Process

Recommendation 1 – That the Chief Engineer continue to develop and implement an asset
management process that will provide the appropriate data and business decision processes
required to optimize Amtrak’s infrastructure maintenance and renewal programs.

Recommendation 2 – That the Chief Engineer expand the Industrial Engineering expertise
within Amtrak’s Engineering Department so that it can regularly develop infrastructure
maintenance programs that optimize the use of manpower, materials, and technology.

Recommendation 3 – That the Chief Engineer develop and use a comprehensive set of
metrics that monitor infrastructure maintenance performance to support effective decision-
making.

Recommendation 4 a – That the Chief Engineer investigate the feasibility of implementing
the European practices used to optimize the productivity of its infrastructure maintenance
crews.

Recommendation 4 b – That the Chief Engineer identify the civil noise and other restrictions
that are the greatest impediment to efficiency and develop the operating and financial
benefits that would justify their modification.

Recommendation 4 c – That the Vice President for Government Affairs & Corporate
Communications work with local government jurisdictions in an attempt to modify civil
restrictions that the Chief Engineer identified as hindering the efficiency of infrastructure
maintenance.

Recommendation 5 – That the Chief Engineer establishes a long-term planning process that
optimizes the investment of capital and operating funds for infrastructure maintenance by
taking into consideration the timing of asset renewals and related asset reliability and
performance.

Recommendation 6 a – That the Chief Engineer develop the operating and financial benefits
that would be derived from a consistent multi-year capital funding program.

Recommendation 6 b – That the Vice President for Government Affairs & Corporate
Communications consult with the Congressional appropriation committees in an attempt to
obtain multi-year commitments of capital funds from the Federal Government.




                                                76
Labor

Recommendation 7 a – In support of the actions recommended to develop a comprehensive
Amtrak compensation strategy (reference page 22 of the OIG Report E-09-03), that the Chief
Engineer identify the critical near-term and projected staffing shortfalls that need to be
addressed by the comprehensive compensation strategy.

Recommendation 7 b – That the Vice President for Human Resources & Diversity Initiatives
develop a comprehensive compensation strategy that will help attract and retain the skilled
labor required by the Engineering Department to efficiently and effectively complete its
infrastructure maintenance programs.

Recommendation 8 a – That the Chief Engineer identify the alternative surveillance and
inspection technologies that Amtrak can use to more efficiently complete the current asset
inspection procedures.

Recommendation 8 b – That the Chief Engineer identify the FRA regulations that are the
greatest impediment to efficiency, develop the operating and financial benefits that would
justify their modification and then work with the FRA administrators to update FRA
regulations so they align with current inspection technology and information systems.

Recommendation 9 a – That the Chief Engineer identify the labor agreement provisions that
are the greatest impediments to efficiency and then develop the operating and financial data
to justify modifying these agreements.

Recommendation 9 b – That the Vice President for Labor Relations attempt to negotiate
modifications to the current labor agreement that support the assignment of employees to
their highest qualified job category.

Technology

Recommendation 10 – That the Chief Engineer prepare and implement a plan to investigate
the feasibility and benefits that would be derived by utilizing each of the 32 technologies
currently being employed by European railroads as discussed in this section and summarized
in Appendix I.




                                             77
                                           APPENDIX I
  SUMMARY OF EUROPEAN BEST TECHNOLOGY PRACTICES

                                                   Best Practice


Magnesium-copper contact wire
Dual wire catenary change out machine
Remote monitoring/diagnostics
Use of concrete catenary structures
Pattern recognition
Track measurement vehicle
Unattended geometry measuring systems on revenue trains
Video recording of turnouts, visual inspections of the recordings as a result of safety regulations ("nobody in the
track")
Switch monitoring system (POSS)
Portable track geometry gauge
Hand held switch point gauge
Hollow switch tie
Hydraulic switch machines
Switch point rollers
Increase turnout efficiency
Pad under concrete tie
Softer pads between rails and ties
Subgrade replacement machine
Asphalt subgrade layer
Flash butt welding
Fixed point surfacing
Total track renewal
Expanded use of work area fencing
Self contained mobile workstation (Volker Rail)
Safety clearance handrail
Prefab temporary bridges
Safety platform for under-bridge-inspections, permanent inspection scaffolding
Bridge painting
Web based asset register and maintenance program for bridges, also used by road administrations
Cambridge Systematics
Bridge reinforcement
Train approaching warning devices at the movable bridge in Dordrecht
Advanced radio-system: office to train PA (public address) system




                                                       78
                             APPENDIX II

                      Contributors to Report E-09-05

Name__________________________Title/ Function___________________


Amtak OIG

Primary Author:
Jim Simpson                      Chief, Inspections & Evaluations

Other Contributors:
Calvin Evans                     Deputy IG, Inspect. & Evaluations
Philip Ong                       Director, Inspections & Evaluations
Nico Lindenau                    Director, Inspections & Evaluations

Amtrak Engineering

Frank Vacca                      Chief Engineer
Steven Falkenstein               Deputy Chief Engineer Maintenance
David Staplin                    Deputy Chief Engineer Track
James Richter                    Deputy Chief Engineer Structures
Keith Holt                       Deputy Chief Engineer Communications & Signals
Robert Verhelle                  Deputy Chief Engineer Electric Traction
William Bates                    Sr. Director Business Improvement
Tom Denio                        Superintendent Engineering Production
Ed Simons                        Sr. Director Planning & Budgeting
Reuven Shiloh                    Sr. Director Operation Improvement
Bruce Willbrant                  Former Deputy Chief Engineer Maintenance
John Pielli                      Director Track Maintenance & Compliance
Bernie Pattay                    Director Program Planning
Jim Buechler                     Director, Planning & Integration
George Fritter                   Deputy Division Engineer New England


BSL Management Consultants

Dr. Heiner Bente                 Managing Director
Klaus Wittmeier                  Senior Consultant
Frank Zschoche                   Director



                                     79
                  Contributors to Report E-09-05 (cont.)
Name__________________________Title/ Function___________________

SBB

Martin Aeberhard                 Head of System Design-ET
Markus Barth                     Head of Interaction Infrastructure/Rail
Jean-Michel Devaud               Head of Products and Systems
Karin Frey                       Project Engineer – Asset Management
Daniel Gerber                    Head of Interlocking Block
Peter Guldenapfel                Senior Engineer, Products and Systems
Xaver Imwinkelried               Area Manager, Maintenance & Construction
Thomas Peter Lang                Senior Engineer, Products and Systems
Beat Pfyl                        Senior Controller, Finance – Track System
Heinz Rickli                     Senior Eningeer, Program Manager
Peter Walchli                    Head of Measuring Train
Jurg Widmer                      Senior Engineer, Asset Management
Daniel Wyder                     Head of Asset Management

OBB

Friedrich Cerny                  Engineering –    Train Control & Signalling
Thomas Simandl                   Infrastructure   Service
Roman Fila                       Engineering –    Bridges & Civil Engineering
Jurgen Stern                     Engineering –    Geotechnics
Franz Stelzer                    Engineering –    Permanent Way

OBB (continued)

Dietmar Zieri                    Director Layout of Lines & Stations
Klaus Leithner                   Engineering – Standardization Energy
Bernhard Knoll                   Director – Permanent Way

Network Rail

Jerry England                    Director – Civil Engineering
Andy Kirwan                      Head of Asset Management Development
Darren Wells                     Standards and Assurance Engineer
Charles Hervy                    Business Planning Engineer
Peter Lander                     Track and Geometry Gauging Engineer
Alan Dray                        Head of Structures Engineering
David Wynne                      Head of Maintenance Improvement
Jonathan Ellis                   Interoperability Engineer


                                      80
                 Contributors to Report E-09-05 (cont.)
Name__________________________Title/ Function___________________

Simon Broomhead                 Infrastructure Measurement Engineer
Eddie Locke                     Examination Resource Manager
Mark Dembrosky                  Vehicle Track Dynamics Expert
Tez McCall                      Engineering Development Manager
Richard Owens                   Area Track Engineer

Deutsche Bahn

Andreas Beck                    Technology Management
Knut Maisch                     Head of Maintenance and Operations
Jorg Schurig                    Asset Planning
Alexandra Vogl                  Head of Central Asset Planning
Jens Muller                     Head of Civil Engineering


Banverket

Torbjorn Bodin                  Project Leader
Valle Janssen                   Bridge Engineering
Bjorn Ostlund                   Division Chief
Helena Andersson
Fredrik Markgren                Engineer Interlocking
Per-Eric Metso                  Project Leader – Consultant
Lars Lagestam                   Chief of Signaling

Banverket

Johan Oberg                     Civil Engineering
Roberth Eriksson                Manager in Stockholm
Bjorn Kufver                    Track Engineer
Sven Leijonhufvud               Coordinator-technology
Jenny Holm                      Informant
Stephan Larsson                 Project Manager, Telelbacken
Ensio Taivalkoski               Track Engineer
Terje Johnsson
Maria Blanche                   Administrator




                                    81
                Contributors to Report E-09-05 (cont.)
Name__________________________Title/ Function___________________

ProRail

Ted Luiten                     Head Infrastructure Planning
Dr. Ivan Shevtsov              Specialist Rail Systems
Taco Sysling                   System Manager, Track
Frits Verheij                  Manager Asset Management
Andre Broersen                 System Specialist




                                   82
